<html>
<title> - BUILDING JOB OPPORTUNITIES FOR VETERANS</title>
<body><pre>[Senate Hearing 113-86]
[From the U.S. Government Publishing Office]




 
                                                         S. Hrg. 113-86

                BUILDING JOB OPPORTUNITIES FOR VETERANS

=======================================================================

                                HEARING

                               before the

                        JOINT ECONOMIC COMMITTEE
                     CONGRESS OF THE UNITED STATES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 10, 2013

                               __________

          Printed for the use of the Joint Economic Committee


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                   U.S. GOVERNMENT PRINTING OFFICE

 82-370                   WASHINGTON : 2013

------------------------------------------------------------------------
 For sale by the Superintendent of Documents, U.S. Government Printing
  Office  Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; 
       DC area (202) 512-1800  Fax: (202) 512-2104  Mail: Stop IDCC, 
                      Washington, DC 20402-0001



                        JOINT ECONOMIC COMMITTEE

    [Created pursuant to Sec. 5(a) of Public Law 304, 79th Congress]

HOUSE OF REPRESENTATIVES             SENATE
Kevin Brady, Texas, Chairman         Amy Klobuchar, Minnesota, Vice 
John Campbell, California                Chair
Sean P. Duffy, Wisconsin             Robert P. Casey, Jr., Pennsylvania
Justin Amash, Michigan               Mark R. Warner, Virginia
Erik Paulsen, Minnesota              Bernard Sanders, Vermont
Richard L. Hanna, New York           Christopher Murphy, Connecticut
Carolyn B. Maloney, New York         Martin Heinrich, New Mexico
Loretta Sanchez, California          Dan Coats, Indiana
Elijah E. Cummings, Maryland         Mike Lee, Utah
John Delaney, Maryland               Roger F. Wicker, Mississippi
                                     Pat Toomey, Pennsylvania

                 Robert P. O'Quinn, Executive Director
                 Niles Godes, Democratic Staff Director
                            C O N T E N T S

                              ----------                              

                     Opening Statements of Members

Hon. Amy Klobuchar, Vice Chair, a U.S. Senator from Minnesota....     1
Hon. Erik Paulsen, a U.S. Representative from Minnesota..........     3

                               Witnesses

Mr. Ryan M. Gallucci, Deputy Director of National Legislative 
  Service, Veterans of Foreign Wars, Washington, DC..............     5
Mr. Kyle Mitchell, Deputy Executive Director, Texas Veterans 
  Commission, Austin, TX.........................................     7
Mr. Shawn Deabay, Director of Veterans Employment Services, Texas 
  Veterans Commission, Austin, TX................................     9
Mr. Benjamin G.S. Fowke III, Chairman of the Board, President and 
  CEO, Xcel Energy, Minneapolis, MN..............................    11

                       Submissions for the Record

Prepared statement of Chairman Brady.............................    26
Prepared statement of Mr. Ryan M. Gallucci.......................    26
Prepared statement of Mr. Kyle Mitchell..........................    29
Prepared statement of Mr. Shawn Deabay...........................    33
Prepared statement of Mr. Mr. Benjamin G.S. Fowke III............    37
Question for the Record from Senator Pat Toomey to Mr. Deabay, 
  Mr. Mitchell, and Mr. Gallucci.................................    39
Response to Question for the Record from Mr. Ryan Gallucci, 
  Veterans of Foreign Wars.......................................    39
Response to Question for the Record from Texas Veterans 
  Commission.....................................................    40
Report titled ``Building Job Opportunities for Returning 
  Veterans'' submitted by Vice Chair Klobuchar...................    42


                BUILDING JOB OPPORTUNITIES FOR VETERANS

                              ----------                              


                        WEDNESDAY, JULY 10, 2013

             Congress of the United States,
                          Joint Economic Committee,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:02 a.m. in Room 
216 of the Hart Senate Office Building, the Honorable Amy 
Klobuchar, Vice Chair, presiding.
    Representatives present: Paulsen, Amash, Maloney, and 
Delaney.
    Senators present: Klobuchar, Murphy, and Wicker.
    Staff present: Doug Branch, Gail Cohen, Connie Foster, 
Colleen Healy, Patrick Miller, and Robert O'Quinn.

  OPENING STATEMENT OF HON. AMY KLOBUCHAR, VICE CHAIR, A U.S. 
                     SENATOR FROM MINNESOTA

    Vice Chair Klobuchar. Okay, the hearing is called to order. 
I want to thank everyone for being here this morning for this 
important conversation on the employment situation for 
Veterans.
    We are going to be looking at the contributions that 
veterans make to the economy. We did a report on this with the 
Joint Economic Committee showing the challenges that recent 
veterans are facing when they come home. There is some good 
news. There have been some improvements, but as our witnesses 
know, there are still challenges and work that needs to be 
done.
    I would like to introduce today's distinguished witnesses:
    Mr. Ryan Gallucci is the Deputy Director of the National 
Legislative Service for the Veterans of Foreign Wars. At the 
VFW his focus is on helping transitioning service members and 
veterans pursue higher education and viable career paths 
following their military service. He served eight years in the 
U.S. Army Reserve, and was awarded the Meritorious Bronze Star 
Medal and the Combat Action Badge for his actions while 
deployed in Iraq.
    Mr. Kyle Mitchell is the Deputy Executive Director for the 
Texas Veterans Commission, the state-appointed advocate of 
Texas veterans. He has held this position since 2010. Prior to 
that, he served as an advisor to Governor Rick Perry.
    Mr. Shawn Deabay is the Director of Veterans Employment 
Services at the Texas Veterans Commission. He has worked in the 
Veterans Employment Services Program for 13 years, and directed 
it since 2011.
    You may wonder why we have two Texans, with two Minnesotans 
chairing the hearing.
    [Laughter.]
    It is just a coincidence, but actually Congressman Brady I 
know would love to be here but is chairing another hearing as 
Congressman Paulsen will explain. But we welcome you.
    And then finally, Mr. Benjamin Fowke is the Chairman of the 
Board, President, and CEO of Xcel Energy, a major electricity 
and natural gas company with operations in eight Western and 
Midwestern States. Headquartered in Minneapolis, Xcel has more 
than 5 million electric and natural gas customers. He serves on 
the board of directors of several organizations, including the 
Minnesota Business Partnership. They have an excellent record 
with veterans that we will hear about today, and I think it is 
an example of the kind of work we are seeing from employers all 
across the country.
    As I mentioned, we did a report in preparation for today's 
hearing. The encouraging news. First, the employment situation 
for veterans has improved, and the overall veterans' 
unemployment rate of 7 percent was below the national rate of 
8.1 percent in 2012. In my home state, the veterans' 
unemployment rate is at 6.8 percent, just below the national 
average.
    In addition, the unemployment rate for veterans who served 
in the post-9/11 era declined by more than 2 percentage points, 
which is a major decline in 2012; but as we all know, it was 
way too high to begin with. So it went from 12.1 percent to 9.9 
percent, a larger drop than for both the non-veteran and total 
veteran population.
    But there is still more work to be done. Post-9/11 veterans 
still face an unemployment rate that is nearly 3 percentage 
points higher than the total veteran population, and 2 
percentage points higher than non-veterans.
    When we look at employment industry by industry, it is 
clear that the recession had a larger impact on many industries 
that employ a high share of veterans. And as we also know, a 
number of them were serving overseas when the downturn hit; 
their jobs disappeared, and it was much harder for them when 
they came back in terms of getting the job that was no longer 
there, or looking for a new one.
    Industries in which veterans often find work, such as 
manufacturing and construction, were among the hardest hit 
during the recession. At the same time, recent veterans are 
under-represented in the faster growing sectors of the economy, 
including leisure and hospitality, and education and health 
services.
    For these recent veterans, unemployment may be due to 
challenges in translating their military experience into 
civilian work, or not having the correct skills for the 
available civilian jobs. Or, as I mentioned, the fact that they 
were serving when we saw the downturn.
    Now what do we do?
    In response we have taken a number of steps to help improve 
employment prospects for returning veterans. The Post-9/11 GI 
Bill offers tuition benefits for veterans who served in the 
Post-9/11 era. Over 900,000 veterans and their family members 
have benefitted from this landmark legislation, and we hope 
that it had something to do with the fact that we are now 
seeing these improving numbers. We knew that that would take a 
few years to be able to show through.
    In 2011, we passed the VOW to Hire Heroes Act, a bill that 
I co-sponsored. That legislation amended the Work Opportunity 
Tax Credit and increased the tax credit for employers that hire 
unemployed veterans. Now employers can get up to a $9,600 tax 
credit for hiring veterans. It also expanded the Transition 
Assistance Program to help prepare service members to enter the 
civilian workforce.
    Many skills learned in the military are useful in meeting 
civilian job requirements, but oftentimes, as I've heard from 
employers, when veterans talk about their work they might use 
acronyms or letters or numbers and really are not able to 
explain the high level of responsibility and the work ethic 
that they actually brought with them from the military. And so 
I know that a lot of companies and groups in the veterans area 
have been working with our veterans on that issue.
    Another thing that we can do, that we continue to work on, 
is the skills that they get there. I use the example of 
paramedic skills where we have a shortage of paramedics in 
rural areas. Our veterans get those skills over there, but they 
come back and they have to start all over again in a program to 
learn to be a paramedic.
    Now they obviously need to get some kind of degree, if they 
don't have it yet, but we would like to see them get more 
credit for the actual work that they did in the Service so that 
they are able to apply that to the education that they will 
need to get when they come back. That shortens the time period, 
and also shortens the time period that they may be away from 
their families.
    Manufacturing. Just to give a sense, in the State that 
Representative Paulsen and I represent, in 2010 40 percent of 
our manufacturers said they had job openings for which they 
couldn't find skilled workers. Now in 2012, it was up to 60 
percent. Clearly there are openings there. Oftentimes they may 
require a one- or two-year degree, or even more, given the 
complexity of some of our manufacturing now, but that is 
another area.
    I am so proud of our employers in Minnesota. They 
actually--we have a high percentage of Guard and Reserve 
members. Our employers got together and actually went to Kuwait 
when our troops were returning home from Iraq, and this group 
of Minnesotan National Guard were actually helping in that 
transition, and actually went and interviewed and worked with 
them when they were in Kuwait. Major companies went over there 
to work with our veterans.
    That is the kind of pitching in that we need to see as we 
transition out of these wars and we bring our troops home, and 
we see some cuts to the military budget. We know we're going to 
have a number of former Service members that are home and need 
jobs.
    With that, I am happy to turn it over to my colleague from 
Minnesota, Representative Paulsen.

 OPENING STATEMENT OF HON. ERIK PAULSEN, A U.S. REPRESENTATIVE 
                         FROM MINNESOTA

    Representative Paulsen. Well I would like to thank Vice 
Chair Klobuchar for choosing the topic of today's hearing, 
``Building Opportunities for Veterans.''
    Chairman Brady is occupied with another subcommittee 
hearing over in the House on the Ways and Means Committee.
    Every single member of this Committee honors the men and 
women who have served in our Nation's Armed Forces. Since the 
enactment of the Servicemen's Readjustment Act of 1944, which 
was popularly known as the ``GI Bill,'' Congress has pledged to 
help veterans pursue their ideal of the American Dream. 
Congress remains committed to helping veterans make a 
successful transition to civilian life, caring for the wounded, 
and assisting the disabled and their families.
    Today's hearing focuses on a key portion of that 
commitment: Helping veterans find jobs. There are numerous 
federal and state programs that are designed to help veterans 
secure a college education and training, take advantage of what 
skills they learned in the Armed Forces, and then find gainful 
employment in the private sector.
    Broadly speaking, employment trends among recent veterans 
follow employment trends among the entire working-age 
population. Indeed, the 12-month moving average for 
unemployment rate for all veterans of 6.7 percent is slightly 
lower than the overall unemployment rate of 7.6 percent in 
June. Therefore, the general condition of our economy affects 
the level of employment among veterans as much, if not more, 
than specific programs designed to help veterans find jobs.
    The Growth Gap--which is the difference between the 
economic performance in the current recovery and an average 
recovery since World War II--is hurting employment prospects of 
both veterans and non-veterans.
    This recovery, which is four years old this month, is the 
weakest in seven decades. Consequently, the United States has 
$1.2 trillion less today in real GDP and 3.9 million fewer 
private sector jobs than the United States would have had in an 
average post-war recovery.
    In terms of real disposable income per capita, this anemic 
recovery has generated about $2,800 less in income after 
inflation and taxes for every American than an average post-
1960 recovery would have generated.
    And why are we suffering from a Growth Gap? Business 
investment in new buildings, and equipment, and software drives 
private-sector job creation. Compared with previous recoveries, 
real business investment has been weak. After five-and-one-
quarter years, it still remains at 3.9 percent below its pre-
recession peak.
    A lack of liquidity and high interest rates are not 
restraining business investment. Commercial banks have over $2 
trillion in excess reserves sitting at the Fed that could be 
lent to America's entrepreneurs.
    America's non-financial corporations have another $1.5 
trillion in cash sitting on the sidelines. And interest rates 
do remain at historic lows. The Federal Reserve has done all 
that it can through monetary policy to help this recovery--
which we've had some discussion in this Committee about.
    Local businesses continue to tell us over and over again 
that Washington's tax, and regulation, and deficit policies 
which the President continues to pursue have also generated 
uncertainty that is deterring America's entrepreneurs from 
making the investments that would create millions of good jobs 
for veterans and non-veterans alike.
    It was Nobel Laureate Albert Einstein who defined insanity 
as ``doing the same thing over and over again and expecting 
different results.'' Four years after an anemic recovery has 
begun, it is clear that the current mix of economic policies is 
not working and we can do better.
    And what can be done to reduce and close the Growth Gap and 
ensure that the 21st Century is another American Century? The 
bottom line is you must get our act together in Congress 
bipartisanly in three major areas of economic policy:
    One, we need to reduce federal spending and federal debt as 
a percentage of our Gross Domestic Product. We need to continue 
to pursue growth, pro-growth tax and fiscal policies for a 
healthier economy to give businesses the incentive and 
confidence to invest in companies, equipment, and people.
    We need to overhaul the federal regulatory process to 
ensure necessary regulations are balanced and cost-effective.
    And then we need to return to a more predictable rules-
based monetary policy that will maintain purchasing power of 
the United States dollar over time.
    Those basic changes will spur the U.S. economy and help our 
veterans find gainful employment. And to that end, earlier this 
year I partnered with the Army to host a job fair in Minnesota. 
And as Senator Klobuchar well knows, and mentioned, the 
Minnesota National Guard has been implementing new programs 
with a great rate of success, putting a focus on getting our 
veterans back to work.
    I am also proud of our Minnesota employers like Xcel, who 
is testifying here today. They do represent why Minnesota is a 
leader when it comes to taking care of our veterans, including 
hiring initiatives.
    I also want to thank all the witnesses for being here 
today, and I look forward to hearing your testimony.
    [The prepared statement of Representative Brady appears in 
the Submissions for the Record on page 26.]
    Vice Chair Klobuchar. Very good. Thank you, very much.
    Mr. Gallucci, why don't you begin?

STATEMENT OF MR. RYAN M. GALLUCCI, DEPUTY DIRECTOR OF NATIONAL 
 LEGISLATIVE SERVICE, VETERANS OF FOREIGN WARS, WASHINGTON, DC

    Mr. Gallucci. Thank you, Vice Chair Klobuchar.
    On behalf of the VFW, the Nation's largest and oldest 
organization of combat veterans, I want to thank you for the 
opportunity to present our perspective on the current 
employment situation for veterans.
    As the current conflicts draw down and the military plans 
to shrink the Active Duty Force, the Department of Labor 
anticipates that more than 1 million veterans will enter the 
workforce in the next few years.
    The most recent data from the Bureau of Labor Statistics 
indicates that veteran unemployment is trending downward, and 
that total veteran unemployment remains lower than the national 
average. Unfortunately, this glimpse into the employment 
situation of veterans only tells part of the story.
    While the VFW applauds the last Congress for addressing 
persistent veterans' unemployment through policies like the VOW 
to Hire Heroes Act, unemployment among young veterans and women 
veterans still far outpaces civilian unemployment.
    For the VFW's full concerns and recommendations, I refer 
the Committee to my prepared remarks. For the balance of my 
time, I would like to focus on three specific issues:
    Military Transition Assistance;
    Professional Licensing and Credentialing; and
    Educational Opportunities.
    First with regard to military transition assistance, or 
TAP, the VFW has long held that TAP [Transition Assistance 
Program] is critical to ensuring service members have a quality 
baseline of information from which to make informed decisions 
about future career opportunities when leaving the service.
    For years the VFW called on VA, DoD, and Labor to revise 
the TAP curriculum, and we are proud to see that the recently 
mandated redesign is nearly complete.
    While testifying on this issue, we have acknowledged that 
the TAP redesign is a drastic improvement, but we believe that 
more can be done to ensure that service members are adequately 
prepared for the difficult transition into the civilian 
marketplace.
    The VFW is concerned that service members will not be 
required to participate in individualized TAP tracks, but 
rather satisfy career-readiness standards on their own time. 
The VFW believes that the track's curricula were covered by the 
recent TAP participation mandate, and we encourage DoD to 
deliver this training appropriately.
    The VFW has long said that service members on Active Duty 
cannot reasonably anticipate all of the challenges that they 
may face once they've transitioned into civilian life, which is 
why we encourage each agency to make its curriculum readily 
available to veterans once they leave Active Duty.
    We also encourage community organizations to step up and 
help fill the gaps where necessary. For example, VFW Post 661 
in Salem, Oregon, recently joined forces with Easter Seals to 
host Battle Buddy Luncheons where veterans in the community can 
come into the Post each week to learn about local resources. 
The brainchild of VFW member and Easter Seals employee Jarod 
Dyer, the program has already helped veterans get back on their 
feet and on the path to quality careers.
    Second, with regard to post-service licensure and 
credentialling, the VFW believes that when a service member 
leaves Active Duty he or she should be able to continue in a 
similar civilian career. Unfortunately, this is not usually 
possible because military training does not directly align with 
civilian licenses or credentials.
    The VFW applauds DoD's effort in its current pilot program 
on civilian credentialling, and we encourage further expansion 
of this program beyond the current handful of covered military 
jobs.
    However, the military can only do so much to resolve this 
issue. It will also take a concerted effort from states that 
issue licenses and private industry which must invest in the 
human capital our newest veterans offer.
    Yesterday I had the opportunity to meet with one such 
private company, Sharp Decisions, which is dedicated to helping 
veterans receive quality IT credentials. Karen Ross, CEO of 
Sharp Decisions, recently commissioned a Vet's Program which 
trains veterans in IT testing and data mining capabilities.
    The program is free to veterans who are on the Sharp 
payroll throughout their training. Once trained, Ross deploys 
her teams of credentialed IT professionals to clients. Ross 
said that the program was not simply born out of patriotism but 
out of the recognition that highly trained military 
professionals offer the traits she and her clients needed. It 
made business sense.
    Finally, with regard to educational opportunities, the VFW 
has worked diligently over the last few years to improve 
transparency in education access for veterans, but also to 
improve benefits available to unemployed veterans.
    In my prepared remarks I discuss the VRAP program, which 
has offered many unemployed older veterans significant 
opportunities to enhance their job skills. Unfortunately, 
statutory limitations on two-year schools and full-time 
enrollment make it difficult for many to participate.
    The VFW is also concerned that, despite improvements to 
information flow for college-bound veterans, we lack quality 
data on outcomes threatening the long-term viability of 
benefits like the Post-9/11 GI Bill.
    Through the help of Student Veterans of America and the 
National Student Clearinghouse, the VA will soon be able to 
better track education beneficiaries, but we must do more to 
demonstrate our return on investment.
    For veterans attending public schools, the current 
reimbursement model for the Post-9/11 GI Bill also creates 
unforeseen financial hurdles, since many veterans are 
disqualified from in-state tuition because of their military 
service.
    We encourage Congress to allow all Post-9/11 GI Bill 
eligible veterans to attend at the in-state rate, offering 
reasonable protections for those affected, much like the 
protections we already offer our troops on Active Duty.
    The employment outlook for our veterans has drastically 
improved since the recession hit in 2008. However, as we have 
outlined here today, we certainly can do more.
    Vice Chair Klobuchar and Members of the Committee, this 
concludes my testimony. I am happy to answer any questions you 
may have.
    [The prepared statement of Mr. Ryan M. Gallucci appears in 
the Submissions for the Record on page 26.]
    Vice Chair Klobuchar. Thank you, very much.
    Mr. Mitchell.

  STATEMENT OF MR. KYLE MITCHELL, DEPUTY EXECUTIVE DIRECTOR, 
             TEXAS VETERANS COMMISSION, AUSTIN, TX

    Mr. Mitchell. Madam Chair, Members, thank you very much for 
having me here.
    Again, my name is Kyle Mitchell. I am the Deputy Executive 
Director of the Texas Veterans Commission. On behalf of our 
Executive Director Thomas Palladino, our Chairman Al Cantu, and 
our Commissioners, I appreciate you having us here to talk 
about what we are doing to help the 1.7 million veterans in 
Texas.
    We do that through our four program areas:
    Our Claims Representation and Counseling Program, which 
includes our state strikeforce teams which have helped over 
19,000 backlogged claims move through the system.
    We have our Veterans Employment Program which we will be 
talking about today.
    We have a Veterans Education Program, which as the Vice 
Chair noted plays a key role in helping veterans use their 
state and federal education benefits.
    And we also have a Fund for Veterans Assistance, which 
provides grants to local governments and nonprofit 
organizations that help veterans and their families.
    We are the advocacy agency for veterans in the State of 
Texas. And these four program areas are important because they 
are all centralized in one agency. Veterans come here and the 
structure is the key to our success.
    I would like to highlight two aspects of my submitted 
testimony which are hard to convey in writing. First is 
appreciation.
    The Texas Veterans Commission and the State of Texas 
appreciates the investment that Congress and the Federal 
Government have made in our veterans, not only during their 
Service but after their Service in helping them find 
employment, particularly through the Jobs for Veterans State 
Grant.
    Through the Jobs for Veterans State Grant the Federal 
Government provides over approximately $168 million to the 
states to support veterans' employment; $168 million is not a 
lot of money in comparison to the overall federal budget, or 
even that of the Department of Labor, but it makes a huge 
impact in the State of Texas and across the Nation.
    In many cases, these were the only specific resources that 
are available to help veterans find employment. And that is why 
it is critical that these resource be used wisely, and that's 
what we do in Texas.
    Last year the Texas Veterans Commission received $12.2 
million through the Jobs for Veterans State Grant which allowed 
us to provide 170 veteran employment representatives throughout 
the State of Texas located in 92 workforce centers, working 
with our partner, the Texas Workforce Commission, and our local 
Workforce Boards.
    In the most recent reporting period, we were able to help 
over 69,000 veterans, and many of those obtained employment. 
Approximately 221 veterans obtained employment for every one of 
our Veteran Employment Representatives. Although we only 
receive about 7 percent of the Jobs for Veterans State Grant 
funding nationwide, we account for over 18 percent of the 
veterans entering employment after receiving services.
    And because we appreciate this funding, and because we are 
successful with it, this brings me to my second point: 
Opportunity, the opportunity to improve the Jobs for Veterans 
State Grant Program. And one way to do that is to emphasize 
performance.
    One, we think that performance should be part of the 
funding formula that is included as part of the Jobs for 
Veterans State Grants. We also think that funding for--the 
funding that is provided right now for performance--should 
actually reward performance. Right now, part of the grant goes 
to--is required to be spent on performance regardless of how 
well a state is performing, and we think that that should 
change.
    Mr. Deabay, who is here with me today and, as the Vice 
Chair noted, has 13 years of experience with the Jobs for 
Veterans State Grant, will provide a little bit more detail on 
that and on the detail of other ways we think we can improve 
the Jobs for Veterans State Grant.
    I would like to spend the rest of my time talking a little 
bit about veteran entrepreneurship, which is a topic that we 
have been working on in Texas.
    Last year we identified the need to do that. We launched a 
pilot veteran entrepreneurial program in Texas. Our one staff 
member was able to assist over 1,000 veterans towards veteran 
entrepreneurship. We think that this is valuable work that we 
can do.
    Right now the Small Business Administration, who has been a 
very valuable partner in this effort, but they also serve a 
population of over 23 million veterans nationwide through a 
network of only 15 Veteran Business Outreach Centers, so we 
think that there is an opportunity to provide expanded 
resources there.
    We also think that, to the Chair's point about the Post-9/
11 GI Bill, the work that we do as the state approving agency 
for that. There have been some changes to the work that we do 
as the state approving agency. We think that there are some 
opportunities to improve that work there. And also to better 
utilize the on-the-job training program that is available 
through the Post-9/11 as a way to better integrate veterans 
with employers.
    In closing, I would like to thank the Committee again for 
having the Texas Veterans Commission here. Again, through our 
four program areas we are able to do great things for veterans. 
But part of the great work that we are able to do on behalf of 
employment is in no small part due to the support that we get 
from the Federal Government. And we also believe that there are 
opportunities to improve that work.
    [The prepared statement of Mr. Kyle Mitchell appears in the 
Submissions for the Record on page 29.]
    Vice Chair Klobuchar. Very good. Thank you very much, Mr. 
Mitchell.
    Mr. Deabay.

STATEMENT OF MR. SHAWN DEABAY, DIRECTOR OF VETERANS EMPLOYMENT 
        SERVICES, TEXAS VETERANS COMMISSION, AUSTIN, TX

    Mr. Deabay. Good morning. As Mr. Mitchell says, I really 
appreciate this opportunity to share with you the reasons why 
in Texas we've been so successful.
    It starts with our Veteran Employment Representatives, the 
LVSs and DVOPs that Kyle had mentioned. I refer to them as job 
caches, because what they do is help veterans with, veterans of 
all wars, with every aspect of finding employment, whether 
they're under-employed, or unemployed. They help them with 
every aspect. That could be translating military skills. It 
could be resume writing. It could be overcoming barriers to 
employment. There's lots of things that my job coaches do that 
are very, very important.
    What is key is that initial assessment. During the initial 
assessment, veterans will come in and we will try to see every 
veteran the very first time they enter the American Job Center.
    What we do is we do an assessment to determine what the 
next step is. Do they need an employment plan? Do they need 
resume help? Do they need a referral to the appropriate 
employer who is willing to hire veterans?
    That is very, very key and something we are very aggressive 
with. We don't wait for veterans to come into the Job Center 
and then help them; we are very aggressive and try to get the 
word out that we are here to help every veteran if you're 
under-employed.
    We also receive input. Before we make decisions at the 
state level, I receive input from all of my job coaches and 
take the pulse of veterans employment at the ground level. 
There's lots of numbers, lots of great statistics, and the 
unemployment rate is declining, but if you ask a veteran who is 
currently looking for work, I don't think they care if the 
numbers are declining or not.
    So we need to take the pulse of employment at the ground 
level, not just simply the numbers. And I rely on my job 
coaches who see veterans each and every day to help me make 
decisions at the state level.
    We do that through work groups. They give me innovative 
ideas. One of the ideas that we have done is we have developed 
veteran business representatives, and they are strictly to 
outreach employers and educate them.
    There are two parts to the employment equation. There are 
the employers, and then there's the veterans. So we have 
dedicated personnel to help educate employers on a regional 
level--Texas is a very big state. So we have done four of them 
to help get that word out, as well as helping veterans on the 
ground.
    Our structure is another main reason for our success. When 
we make decisions at the state level, our job coaches in the 
field take minutes for them to be able to get that and be able 
to respond and have input. There's not multi-level supervision 
that they need to go through. It is a very seamless 
communication style and structure that we have where I can 
direct my job coaches at any given time and they give me 
feedback in any given time. And that is also very important.
    Real quick about our challenge of getting the word out that 
we're here. A lot of veterans still do not know that we have--
in Texas we have, like Kyle said, 170 job coaches. And getting 
the word out that we are here is a definite challenge. We do 
our best in doing that, but we can always do a lot better.
    Also, communication within all of the stakeholders in 
veterans employment. That includes the Department of Labor 
VETS, the states, all the stakeholders. We need to do a better 
job of coming together and talking about the pulse of veterans 
employment, and share ideas--share ideas with large states, 
medium states, and small states.
    There are some great things going on, as you mentioned in 
Minnesota. There are some great things going on in Texas in 
entrepreneur with our business representatives that make a real 
difference in veterans' lives. And there are some great ideas.
    We need to come together and share those ideas. Get 
together with large, medium, and small states and have that 
forum to discuss, and maybe other states can implement what we 
are doing and what other states are doing.
    In closing, I would like to--just a quick story. I know 
it's in my testimony, in my written testimony, but what we do 
really helps veterans' lives on just a real basic level. I was 
doing this for over 13 years. I started as a DVOP job coach in 
Texas. Very few resources were available. There was a homeless 
veteran who lived out of his car in the parking lot.
    I saw him every morning at seven o'clock. I got to know 
this veteran. I got to help this veteran get housing, helped 
him with food--and I didn't do it by just a referral: here, see 
this website; here, go--it was a real personal one-on-one. I 
developed a relationship within the community, and that is what 
our job coaches do.
    Through the VWIP program, Veteran Workforce Investment 
Program, we were able to help him go and get a truck driving 
license. He became an over-the-road longhaul truck driver, and 
would come back on his way to Houston and just tell me what a 
great job, and thank me so much. And that is what it is really 
about. It's not about the numbers. It's really about helping 
the veteran, each and every one of them, and I am very proud.
    The last thing I would like to say is, the reason why we 
are successful is because I have an amazing staff: 170 job 
coaches that really care, and really make a difference in 
veterans' lives. One-on-one personal service is the key.
    So with that, I end.
    [The prepared statement of Mr. Shawn Deabay appears in the 
Submissions for the Record on page 33.]
    Vice Chair Klobuchar. Thank you, very much.
    Mr. Fowke.

 STATEMENT OF BENJAMIN G.S. FOWKE III, CHAIRMAN OF THE BOARD, 
        PRESIDENT AND CEO, XCEL ENERGY, MINNEAPOLIS, MN

    Mr. Fowke. Thank you, Vice Chair Klobuchar. It is a 
pleasure to be here this morning before this distinguished 
panel. Minneapolis is our company headquarters, and I am 
delighted, as always, to be here with you. Xcel Energy also 
operates in Texas, and we appreciate Chairman Brady's 
activities on veteran issues as well. And we are pleased to see 
that Representative Paulsen is here, another Minnesotan with 
whom we work closely, who has also worked to ease the 
transition of veterans to civilian life.
    Roughly 12 percent of Xcel Energy's 11,000 employees are 
vets, and veterans are even better represented on our 
management team. And while we are proud of that performance, we 
want to do more.
    For example, we know that our veteran employees generally 
are not Post-9/11 vets, so absent our intervention we could 
lose ground.
    Our experience is similar to that noted in the Committee's 
report on ``Building Job Opportunities for Returning Vets''--
that is, veterans we hire tend to be in the older, mid-career 
cohort as opposed to the younger, fresh-out veterans.
    Yet over half of our hires each year are filled with people 
in the 25 to 35 age group. So we have got a great opportunity 
to change that.
    I will briefly highlight what we are doing within our 
company and within our industry, and then offer some 
suggestions on how we can improve veteran hiring practices.
    Internally we have made veteran hiring a priority 
throughout the company, and have worked to address obstacles to 
doing so. One key gap has been the ability to translate 
military skills to civilian job requirements, with the veteran 
unable to articulate his or her experience and skills to fit 
our positions, and our hiring leaders unable to recognize the 
military experience that they have and how it is comparable to 
our work.
    To address this gap, we have developed a translator at our 
career website to help both applicants and and our hiring 
leaders better understand the types of military experiences and 
how they apply to our various job openings.
    We are focusing on line men and women, plant operation and 
maintenance workers and engineers, all jobs where we expect to 
see significant turnover in the coming years. We believe we 
should be able to find good matches with the skills of 
returning veterans, but we need to be sure we build a better 
understanding of military skills to take full advantage.
    Next we need to provide a supportive environment to retain 
that talent. Research shows that veterans stay in their first 
job after Service for 2 years, but then stay in their next 
position for over 10.
    That first shift from military to civilian life can be 
complicated for various reasons, and we want to make sure that 
we provide an environment that lengthens these tenures. We all 
need to have our employees engaged in making that happen.
    To that end, we have developed a series of orientation, 
training, and leadership development programs that use that 
transition. Working within our industry to greatly open 
channels to recruit qualified vets, we participate in 
partnerships such as Troop to Energy Jobs, a collaborative 
effort between the Edison Electric Institute and the Center for 
Energy Workforce Development to help us link to available 
talent.
    Other channels and partners such as military.com, Corporate 
Gray, and Hire A Veteran, also help us reach potential 
veterans.
    Finally, we hold ourselves accountable by creating a 
dashboard to measure our progress. We know that we focus on 
what we measure. So we need to keep our eye on the ball, 
monitor our performance statistics, and use those to further 
close the hiring gap.
    I am very pleased to report that our efforts are paying 
off. We have been honored to receive awards for our veteran 
hiring practices, including the 2013 Most Valuable Employer for 
the Military by CivilianJobs.com.
    GI Jobs also listed Xcel Energy as the top military--one of 
the top military-friendly employers in 2012 and 2013. And it is 
always nice to be recognized, but we know that there is more 
that we can do and we must do. And to that end, just let me 
make a couple of suggestions.
    First, anything that can be done to better identify the 
linkage between a veteran's military experience and civilian 
jobs would be helpful.
    Partnerships between civilian companies and veteran 
agencies can improve the vet's ability to communicate with 
companies more effectively, and further support of these 
efforts would be welcome.
    Such efforts are similar to those efforts we have 
undertaken for college students. An example is with St. Cloud 
University in Minnesota where we help students relate their 
experience through our job openings. I believe these are models 
that we can also apply to veterans.
    Second, it would be helpful if military training could lead 
directly to civilian certificates. In our industry, valuable 
certificates include Certified Security Professionals, Plant 
Operator Licensing, Professional Engineers, Certified 
Information System Security Professional, CPAs, or Certified 
Internal Auditors.
    In many ways, such military and civilian jobs have 
similarities and providing avenues for veterans to achieve 
these kinds of certificates would greatly help the transition.
    Our industry employs a number of highly technical skilled 
positions that are extremely competitive right now. We have a 
retirement bubble. We're going to have half of our workforce 
turn over in the next 10 years. So this is a real opportunity 
for us.
    So let me just conclude by saying we're committed. I am 
committed. Our entire business is committed to this. We know 
how important it is, and we welcome your questions and, more 
importantly, your partnership going forward.
    Thank you.
    [The prepared statement of Mr. Benjamin G.S. Fowke III 
appears in the Submissions for the Record on page 37.]
    Vice Chair Klobuchar. Thank you very much. Thank you, to 
all of you.
    I was just listening to that ``retirement bubble.'' It 
sounds a little like the U.S. Senate. We had our own retirement 
bubble in the last few years with a lot of people retiring, and 
new Members coming in. And I think new energy is always good.
    When you think about these new veterans coming in, we know 
that their unemployment rate, having gone from 12.1 percent in 
2011 to 9.9 percent as we pointed out at the beginning, a 
bigger drop than with the civilian population, that's great. 
But it is still higher than our national unemployment rate. It 
is certainly higher than our Minnesota unemployment rate of 5.3 
percent.
    So could you talk about some of the greatest challenges 
facing these post-9/11 veterans in finding work? Do you see it 
as a skills gap? Lack of the right certification, something you 
just pointed out? Or that ability to translate their military 
skills into civilian jobs?
    Mr. Fowke. I would say it is all of the above, with the 
exceptions of the skills. I think that gets to the translation 
of the skills that they did attain through their military 
service.
    And what I would suggest, in addition to the translator 
type things and getting them the opportunity to get those 
certifications, we need to reach them sooner as they transition 
out of their military careers into civilian life. I would 
encourage us to work together to do basically some simple 
things like pre-qualifications.
    Our industry has a number of basically SAT-type tests for 
aptitude-type tests. And if we could have those vets tested 
earlier, I believe they would rise higher up in the queue when 
that hiring process starts.
    Vice Chair Klobuchar. What do you mean by ``earlier''? Take 
the test earlier?
    Mr. Fowke. Yes. I mean, typically they are taking that test 
after they leave the military. And if we could have them take 
that test prior to leaving the military, then they are pre-
qualified and then we do not have any kind of lag in timing 
gap. And I think what typically happens is they get lost in the 
queue then and they have to re-emerge.
    I think that is the theme we have been talking about with, 
you know, getting the certifications and other things. Let's 
make sure that they get credit for what they did.
    Vice Chair Klobuchar. Thank you.
    Mr. Mitchell, Mr. Deabay, do you want to talk a little bit 
about that certification issue, what you have seen with the 
people you work with?
    Mr. Deabay. I mean I couldn't agree more. The more credit 
that a veteran can get while they serve--I mean, being in the 
military is a corporation, and there's a lot of advanced 
technologies that people aren't aware of that they have a lot 
of skills. They go through a lot of in-depth training, and to 
get credit for that is obviously very important.
    Also, another great point was the earlier the better. The 
earlier that you can get to an exiting service member, the 
better in the employment. Once they're out, there is going to 
be a lag. If you can get to them as soon as possible and get 
them as job-ready as possible when they exit, I think that that 
is absolutely key.
    Vice Chair Klobuchar. Well I mean that is certainly what we 
have seen on this Committee with the long-term unemployment. 
Once they are out and don't have a job for six months, a year, 
it gets harder and harder for them to get employment.
    So I think all of that is true across the populations, but 
certainly we have seen evidence of that. And it is even harder 
for them when they come back to suddenly get all these 
certifications. So a lot of this is getting them ready while 
they are serving, I would think.
    Mr. Deabay. Absolutely.
    Vice Chair Klobuchar. Did you want to add anything, Mr. 
Mitchell?
    Mr. Mitchell [Nodding in the negative].
    Vice Chair Klobuchar. Mr. Gallucci, the Chamber of Commerce 
has created the Hiring our Heroes Program, and the goal of that 
is to get commitments from businesses to hire 500,000 veterans 
or military spouses by the end of next year.
    Have you noticed an increased effort because of this work?
    Mr. Gallucci. As a matter of fact, we think the Hire our 
Heroes campaign has been fairly successful to this point. They 
have put together some fairly innovative techniques to 
encourage companies to hire veterans.
    One of the best examples that they have put together is the 
Heat Map on where companies are hiring veterans. If you go onto 
the U.S. Chamber's website, a veteran who is looking for where 
they are hosting their career fairs can also see where there 
are jobs in in-demand industries.
    So we think it is a very helpful resource. And what the 
Chamber has also done is leveraged local resources. They have 
reached out into communities. My colleagues from the American 
Legion, and also our Posts within the VFW, have worked with the 
U.S. Chamber and local Chambers of Commerce to host hiring 
fairs around the country where employers will come in, 
employers who have made commitments to the U.S. Chamber's Hire 
our Heroes Campaign, with jobs for veterans. So it is not your 
typical job fair where you go in, you gladhand a couple of HR 
representatives, and then you never hear from them again.
    These are veterans who are going in looking for jobs in 
companies who have jobs that they want to fill with qualified 
veterans.
    Vice Chair Klobuchar. The other thing that I think you are 
all aware of--and then I'll turn it over to Representative 
Paulsen--here is just with the Guard and Reserve, sometimes 
they have different situations. They come back. They are not 
going to an Active Duty base for them to have that time where 
they start reintegrating and thinking about it. And they go to 
small towns all over the country. Many of them are from rural 
areas.
    And our state started something called the ``Beyond the 
Yellow Ribbon Program'' that has now gone national, where they 
have to check in every 30 days. Their commanders then see them 
every few months. And then every year. And the commanders see 
how they are doing. Are they using their benefits correctly? 
Are they getting a job?
    And part of this is also to get at mental illness issues. I 
assume you would think this is helpful, as well?
    Mr. Gallucci. Absolutely. One of the issues that I talked 
about in our written testimony was the dilemma with Guard and 
Reserve unemployment. And I draw on some experiences of the 
soldiers that I served with in the Army Reserve, where I have 
one soldier who is just leaving on his third deployment in five 
years.
    Technically he is still a college sophomore. So skills' 
attainment is very difficult. With the number of semesters he 
has been able to attend while serving in the Army Reserve, it 
makes it difficult.
    Also, what you also touched on there has to do with the 
availability of these resources once you leave Active Duty. We 
are doing a much better job of transitioning Active Duty 
service members through the transition assistance program 
mandate, but when a service member goes back into the National 
Guard or Reserve they may not have access to the same kind of 
resources. So closing those through programs like the Army's 
Yellow Ribbon Program are critical to making sure that they can 
get in and talk to potential employers, learn about what is 
available to them from federal and state agencies, and then 
hopefully find a job.
    Vice Chair Klobuchar. Thank you, very much. Representative 
Paulsen, we have a full plate of people here, so it's great.
    Representative Paulsen. Thank you. Well you all have kind 
of touched on it, but one of the key areas in helping the 
service members not waiting for providing that assistance and 
guidance until after they come home is trying to get in front 
of the opportunity, knowing that they will be coming home.
    The Minnesota National Guard has been working with service 
members while they have actually been deployed. They launched a 
pilot program to work with about 2,700 members of the First 
Brigade Combat Team that was deployed in Kuwait.
    It was a unit that faced an estimated unemployment rate of 
about 20 percent upon their return. But by working ahead of 
time on resume, and interview skills, as well as how to 
translate that military experience into marketable civilian 
skills, they were actually able to get ahead of the curve and 
get those folks ready to work as soon as possible. So when they 
came back home, the First Brigade, actually their team 
unemployment rate dropped to below 2 percent.
    And the Minnesota National Guard has also worked with 
employers designated as Yellow Ribbon companies, and those 
Minnesota employers are not only dedicated to hiring veterans, 
but they work together then to share best practices for more 
effective outcomes for others across the board.
    And Minnesota has got other role models, actually. U.S. 
Bank recently was given a prestigious award from the Secretary 
of Defense, Employer Support Freedom Award, from the employer 
in support of the Guard/Reserve Organization, which is 
outstanding. And companies like Xcel, of course, have a special 
place on their website to focus special attention on hiring 
veterans and know that they are an asset.
    Using those examples certainly provides lessons, giving a 
comprehensive approach which you all have kind of touched upon. 
And one of the things I know that I have supported in the 
House, and we've passed legislation as well along with the 
Senate, is making sure that veterans that do return with skills 
that our communities need those skills back home, we want to 
make sure we translate to allow that training and certification 
to directly do jobs back home.
    So, Mr. Fowke, you touched on it a little bit in terms of 
you've got translators where you're getting ahead of the curve 
as a company, and looking at pre-qualifications, giving tests. 
What else can the military do, or what can we help assist the 
military to do directly to help prospective civilian employers 
identify those exact skills that are learned, and that are 
possessed by veterans, making sure that those skills are going 
to be translated into applicable use in the private sector?
    Mr. Fowke. I think we touched upon some of that in the 
various testimony. And it is translating those skills. That is 
the first thing. Getting credit for some of those skills. 
That's the certification, pre-qualification program that we 
talked about.
    And I guess the third thing where I think we could work 
together on is getting access to those veterans earlier--
ideally, prior to leaving the service, so we don't have that 
issue where the Vice Chair said, that after six months it 
starts to get harder and harder.
    So we want to hit the ground running. And I think we can do 
that if we reach out to them sooner. That is similar to the 
experience I related to with the St. Cloud, that if we talk to 
students--in this case it would be vets--sooner, help them 
understand what we are going to need and how to translate that, 
encourage them to take various industry-type standard tests, I 
think we could achieve amazing results.
    Representative Paulsen. Now, Mr. Deabay, you talked about 
coaches and that one-on-one relationship being so critical, and 
that relationship really being helpful to veterans in specific 
situations.
    Do you think that upon discharge the military could certify 
that a veteran possesses a certain skill set? Or what can we do 
to make sure the military is sort of having this coaching 
process earlier on in preparation?
    Mr. Deabay. Yes. The transition assistance program, to work 
with us on our job coaches, and have that communication that I 
talked about before. I think there needs to be better 
communication with that TAP program, and our job coaches, or 
LVRs and DVOPs, as they're known nationally, to talk to them 
earlier.
    I mean, the sooner we can talk to them, the better, and 
identify. But getting those skills. They have the skills, and 
being able to translate them, getting certifications for all of 
the training that they have been through. Everything I really 
think, the sooner the better. But right now, that is part of 
our challenge, is we are not able to talk to them sooner than 
later. A lot of times when we get them, they mention us at the 
TAP program, and then they come see us maybe after, instead of 
before. That is key.
    Representative Paulsen. Mr. Mitchell or Mr. Gallucci.
    Mr. Mitchell. I think that the Transition Assistance 
Program, Congress has made a lot of changes to that program. 
They have made it mandatory. But I think as Mr. Gallucci spoke 
to, and can speak to a little more, that I think is one of the 
key areas where we can continue to--that at the point at which 
they are leaving the service, the military is providing those 
briefings to them, I think there is an opportunity to improve 
that process and to have it not just focused just on briefings 
but to focus on that licensure, the skills and how to do that.
    Mr. Gallucci. I just want to build on this by talking about 
a word that is thrown around in our community a lot, and that 
is ``seamless transition'': So when you go from being a service 
member to a veteran and connecting you to the resources that 
are readily available to you.
    When I was leaving the military--or when I was actually 
still in the Reserve, it blew my mind when I learned that VA 
and Department of Defense never communicated with each other. 
They are completely siloed industries.
    Working in veterans advocacy, I have also learned that the 
Department of Labor, Veterans Employment and Training Service, 
is also siloed from Department of Defense.
    Now Veterans Employment Training Service is working to 
remedy this. They are in the process of negotiating an 
information sharing agreement to get access to the information 
about service members who will be transitioning off of Active 
Duty.
    What VETS wants to do is actually reach out to these 
transitioning service members at four specific points: When 
they make the decision to leave the military; when they are 
going through the Transition Assistance Program; at the 
capstone event for the Transition Assistance Program; and then 
75 days after they have separated from Active Duty.
    I believe my colleagues from the Texas Veterans Commission 
would agree that knowing when the veterans are going to be 
returning home is critical to connecting them with local 
resources.
    This is, from what we've heard from the Department of 
Labor, they are in negotiations with Department of Defense, but 
anything that Congress can do to put some pressure on them to 
codify this and finalize this agreement is critical to 
connecting veterans to those resources.
    Vice Chair Klobuchar. Okay. Very good idea.
    Representative Delaney.
    Representative Delaney. Thank you, Vice Chair Klobuchar, 
for organizing this important hearing. And I also want to add 
my thanks to all of our witnesses for joining us here today 
with their very interesting and insightful testimony.
    My first question is for Mr. Fowke. But before I do that, I 
want to also add my congratulations and appreciation for 
obviously a terrific job that Xcel has done in achieving, I 
think you said in your testimony, a 10 percent veterans 
employment rate, which is probably almost one-and-a-half times 
the average. And you're a large company, so that is 
statistically significant.
    That didn't happen by accident, so there is a lot to be 
learned from what you have done. And it brings to mind a larger 
question about thinking about a company like yours, and 
thinking about the skills that our veterans learn in the 
military.
    It seems to me they leave the military with above-average 
technical skills. They leave the military with above-average 
leadership skills. And they leave the military with experience 
working in a large organization and enterprise that is process-
driven, and where structure is important. Not that creativity 
is not important, but structure and process is important. And 
that seems to line up quite well with your business.
    It's large. It's technical. And while creativity is 
obviously important, there are safety issues, et cetera. So you 
must have very good processes to be successful.
    And so do you think that, as we think about policy around 
improving employment for veterans, we should acknowledge more 
directly that certain industries align better with the skills 
that our veterans have? And perhaps disproportionately allocate 
resources around training and education, to developing bridges 
with those industries?
    Not that we want to discourage veterans from pursuing any 
career profession that they choose, but perhaps on the margin 
some of these resources would be better spent aligning with 
industries like energy services, and I'm sure there are others 
that match with these skills? And not, again, that 
entrepreneurship and things like that are not important and 
veterans should be able to do that, but it is not a skill that 
they gain through training while in the military. They probably 
either have that passion, or they don't, inherently, so that is 
the nature of my question.
    Do you think there is any merit to going down this path, 
which is to align more with specific industries?
    Mr. Fowke. Well I think that is a great question. I think 
if you look at what industries hire, it is almost to your 
point. And the energy, utility, the transport industries are 
big hirers of returning vets. And it is probably not a 
coincidence for some of the things you stated.
    And I will speak selfishly: We want the vets.
    Representative Delaney. Right.
    Mr. Fowke. And you touched on the points. Because they have 
the leadership skills. They know how to work in a team 
situation. And while our industry has made an incredible 
improvement in safety, you are working with electrical lines. 
You are working with gas lines. Safety and process come first. 
And you can't be too creative when it comes to safety.
    So for all those reasons, we think it is an ideal situation 
for industries like ourselves, one. Two, as I mentioned, our 
industry is aging and we do need to replace our workforce. And 
we think that it is not only the skills, it is the values that 
the vets have. And I personally am committed to hiring on 
values just as much as skills.
    So it is a great mix, a great fit, and I would encourage 
that we--as a start in my industry, I think the 
prequalification testing would go a long way.
    Representative Delaney. And maybe Mr. Gallucci, do you 
think that the programs we have, educational et cetera, are 
linked along some of these industry verticals as deeply as they 
should be? Or do you think it is more broad-based?
    Mr. Gallucci. I think we can do better. And one of the 
points that I touched on in my testimony was the Department of 
Defense pilot program on Professional Licensure and 
Credentialing, where the Department of Defense is looking to 
expose military-trained professionals to civilian credentialing 
opportunities while they are still in uniform.
    Right now the pilot program is focused on transportation 
industries, health care; we're hoping to expand it to IT and 
more technical fields where service members receive that 
training while they are on Active Duty, and where it would 
translate to a career for a company like Xcel Energy or 
somebody who--or an industry that's in demand or hiring.
    Representative Delaney. Last question, very quickly.
    Do we look at data to say that we are more successful in 
some industries than others, and then realign resources around, 
the way Mr. Fowke would run his business, do you think?
    Mr. Gallucci. I believe we are looking at data, at least 
from the military perspective. We're looking at those in-demand 
industries, and also where the skills overlap. So if you have a 
military occupational specialty where it easily aligns with a 
civilian career that's in demand, then that's where we're 
looking to expand the pilot program.
    Representative Delaney. Great. Thank you.
    Vice Chair Klobuchar. Thank you, very much. Congresswoman--
oh, she's going to be coming back in a few minutes? Okay. I 
also wanted to acknowledge Congressman Amash and Senators 
Wicker and Murphy that joined us. And I will ask a few 
questions until Congresswoman Maloney returns.
    Mr. Gallucci--oh, here you are. Excellent.
    Representative Maloney. I thought there were----
    Vice Chair Klobuchar. Well, you know, I was going to ask a 
bunch of really hard questions of Mr. Gallucci.
    [Laughter.]
    I was going to really grill him, but here we go. 
Congresswoman Maloney.
    Representative Maloney. Thank you. First, Madam Vice Chair, 
I want to compliment you on a very excellent report and all the 
panelists for what you've done to help our veterans.
    I was really struck by your idea, which I think is a great 
one, Mr. Fowke, about translating the military training into 
certificates so that industry knows they are certified. And 
particularly in security professionals, there is such a need 
for that, and plant operator licensings that you mentioned.
    How would you do that? Now is there a licensing structure 
now for Certified Security Professionals? How could we make 
that idea of yours happen?
    Mr. Fowke. Well I mean those certificates exist in the 
civilian world. So I think the point is that a lot of those 
skills have been acquired in military service. And rather than, 
as the Vice Chair had stated, you know, starting from scratch, 
let's get them credit for what they've done. And, ideally, help 
them get certified even while they are in the military. So then 
they're going right to the top of the queue, and these are jobs 
that are in demand.
    These are jobs that are basically hard to fill. So I think 
we do have that opportunity.
    Representative Maloney. Well I think that is an absolutely 
great idea, and I would love to join the Chairlady in working 
on it.
    In your report today, you talked about nearly 20 percent of 
the post-9/11 vets were women. But female post-9/11 vets face a 
higher unemployment rate than their male peers: 12.5 percent in 
2013 versus 9.5 percent for men.
    Are there additional obstacles for women? Are there any 
programs that focus on women? Any ideas from anyone on why is 
there such a disparity between the employment of the women than 
the men? The women I have met in the military are just as 
dedicated and competent. Why is there such a huge gap?
    Any comments? Any insights? Anyone?
    Mr. Deabay. Well in Texas with the Veterans Commission, 
what we are doing is we are establishing a Women Veterans 
Employment Coordinator to tackle those issues you just 
mentioned. Actually, the job is going to be posted within the 
next couple of weeks.
    They do have unique skills. And I think in talking to 
employers and getting them to understand all of the things that 
they have gone through, they have gone through everything a man 
has gone through in the military. They have the same skills. 
They have got the same leadership, same soft skills, have to 
experience the same things, and I am not really sure employers 
understand that.
    There's also obstacles women face in general with under-
employment, not being paid the same as men. If they're a single 
parent, there are child care issues. There's a lot of issues 
just, or obstacles for them, just women in general. And then 
you add the women veteran issue on top of that.
    So I know in the Veterans Commission we recognized that. 
The numbers do say that the unemployment rate is higher. So we 
are going to have somebody help us identify what we can do as 
an agency. What can we do as a state? And go ahead and move 
forward from there.
    Representative Maloney. I would like also a comment from 
any panelist about business engagement, which seems to me to be 
absolutely critical in helping our veterans find jobs. And 
coalitions like the 100,000 Jobs Mission, which is sponsored by 
a diverse group of companies to hire our vets are sharing best 
business practices in helping vets translate their military 
skills.
    Are there benefits from these sharing programs? Do big 
companies also work with smaller companies? Could you sort of 
comment and give some insight on this type of engagement to 
help our veterans?
    Mr. Fowke. I don't know if I'm answering your question, so 
maybe the other panelists can help me out, but I can tell you 
that as I said in my testimony it really starts at the top. It 
starts with me.
    It starts with the commitment we have not only to hire 
vets, but also women in nontraditional roles. You really 
perform to what you measure on. So I would encourage businesses 
to have measures that they review with their senior leadership, 
and work it right down through the organization. It's just like 
politics. Hiring is local in our organization.
    And it's amazing how you move the needle just by that. And 
the other organizations we can work with, I guess I would defer 
to my colleagues.
    Mr. Mitchell. Well in terms of business engagement, I think 
that one of the things that we are doing that Mr. Deabay 
mentioned is our Veterans Business Representatives that are out 
there to engage those businesses.
    And as Mr. Gallucci mentioned, that when we bring veterans 
into events, and we recently participated in an event that CHEA 
sponsored, they really are hiring fairs. They are there to get 
jobs--they are there to hire veterans on the spot, and we prep 
them to do that.
    Representative Maloney. Very briefly, the tax incentive 
that we passed expires at the end of 2013. Has that tax credit 
that businesses get for hiring vets, what impact has it had? Is 
it worth fighting to extend it? Comments from the panelists?
    Mr. Gallucci. I would say that it's worth fighting to 
expand. But what the VFW is--we do have a concern that it is 
under-utilized by businesses because of the difficulty to 
access the benefit.
    One of the problems--the persistent problems that we see 
is, not only the paperwork hurdle, but then whether or not a 
business would actually be able to take advantage of the tax 
credit because they would not have the requisite taxable 
income.
    What we would prefer to see is not only an extension of the 
tax credit, but then to make the tax credit a payroll tax 
credit that the employer can take right away.
    And clearing up the paperwork issue would be almost a self-
certification where a veteran would have to provide a certain 
type--a DD214 would be a great example--to demonstrate that 
they are an eligible veteran. And then it would be audited on 
the back end similar to the way your taxes are audited.
    Representative Maloney. Okay. And how much of a tax credit 
is it? Is it meaningful? How much is it? I just know there's a 
tax credit. How deep is the tax credit?
    Mr. Gallucci. For small businesses, it would be very 
meaningful, depending--it varies based on what level of 
eligibility you are. So if you're a recently discharged 
disabled veteran, that would be the maximum benefit. And it's 
less as you go through the different----
    Representative Maloney. What is the maximum benefit?
    Mr. Gallucci. I believe--and correct me if I'm wrong--I 
believe it's $9,600, $9,600. So for small business owners, it 
would be a significant benefit.
    Representative Maloney. My time has expired. Thank you.
    Vice Chair Klobuchar. Mr. Deabay, did you want to say 
something else?
    Mr. Deabay. I also wanted to say that all of my job coaches 
issue conditional certifications for the work opportunity tax 
credit. And then my business reps also contact employers about 
utilizing that, and helping them through the paperwork, which 
may not be as cumbersome as people may think, but the 
perception on the employer's side is that it is cumbersome.
    But we do issue that conditional certification, and it is 
way under-utilized.
    Vice Chair Klobuchar. Okay. Very good.
    Representative Maloney. Why do you think it is so way 
under-utilized when businesses could use it? Why is it under-
utilized?
    Vice Chair Klobuchar. Mr. Fowke.
    Mr. Fowke. I can just speak for Xcel Energy, and we might 
be a bit of an anomaly, although perhaps we are not based upon 
the other comments, and we do not really have the tax appetite. 
We will have one in the future, but for a number of reasons we 
don't have it today.
    In my opinion, specific to my company, I would much rather 
see the pre-qualification and the work put in the 
certifications. Because if they're qualified, we're going to 
hire them.
    Vice Chair Klobuchar. Okay. Very good.
    Representative Paulsen, you had some additional questions?
    Representative Paulsen. Yes, I just have an additional 
question.
    Mr. Deabay, in your testimony you kind of highlighted the 
potential problem almost of success in your job. I think you 
mentioned--essentially it's this: If you do your job well, and 
veterans find employment, agencies like yours are likely to 
receive less funding. And some of this is natural, right, 
because fewer unemployed veterans should require fewer 
services. Yet, this is a good outcome that would seem to result 
in punishment through less funding potentially.
    So have you given a little bit of thought to how you would 
balance that type of difficulty? And are there reward 
structures that should be put in place, for instance, that 
might be worth considering as resources are scaled back? Maybe 
you'd want to touch on that, or Mr. Mitchell, or Mr. Deabay?
    Mr. Deabay. Yeah, I mean you are exactly right. The way the 
funding formula works--I mean, it is a long, complicated, 
drawn-out paragraph that basically if you succeed and you help 
a lot of veterans, exactly like you said, find employment, the 
funding is based on those veterans looking for work that are 
compared to other states. So, yes, the better you do the less 
funding potentially you could receive, and the worse you do 
potentially you could receive more funding.
    There is also one percent of our grant that is geared 
towards performance. And regardless of if a state is successful 
or not, they receive that one percent. So I just think 
discussions need to be talked about to how do we leverage that 
one percent? How do we do this funding formula where it also 
has the performance element? The fact that you're doing a good 
job should mean that you should not be penalized by receiving 
less funding.
    But I think it can get very long and can get very 
complicated. But I think discussions need to be made on that 
formula and what should it look like.
    Representative Paulsen. Good. Thank you.
    Vice Chair Klobuchar. Very good. I want to thank everyone 
so much. This was helpful. For our report, I want to thank our 
staff for the work that they did on the report and putting 
together this hearing. And also all of you for being willing to 
come out.
    I think that there has been progress. A lot of it is 
because of the good work of the people before us that realized 
we were seeing an inordinately high unemployment rate with our 
vets.
    I think we know, as Congressman Paulsen has pointed out, 
some of this is tied obviously to the overall economy, and the 
solutions are tied to that in terms of getting a focus on, from 
my perspective, more exports, more job training, bringing down 
our debt in a long-term way to encourage investment and review 
of our rules and regulations.
    I think we agree on a lot of those things. But beyond that, 
while we have this immediate problem of our vets unemployment, 
we have seen that progress, that great dramatic drop from 12.1 
to 9.9 percent, but 9.9 percent is still too high for our post-
9/11 vet.
    We appreciate the work of Mr. Fowke and other companies, 
and the Chamber in making a huge effort in putting the word out 
there that they want to hire vets. And I think we also know the 
other piece of this are some things that are doable: Getting 
credentialed for work that has been done in the military; 
getting those job skills' training going on not when they land 
and they are suddenly in Thief River Falls, Minnesota, but 
while they are still in the Guard, or Reserve, or in Active 
Duty.
    And then finally, in making sure that we embrace our vets 
not just while they are serving overseas, but we put our arms 
around them when they return.
    So I want to thank you for everything you have done, and we 
are looking forward to refining the programs that we have and 
building on the success we have seen, knowing that there is 
still a lot of work to do.
    I wanted to just put one last word in to thank Mr. Fowke 
and Xcel. As Representative Paulsen knows, we had a series of 
sort of Armageddon storms in Minnesota with one rainstorm after 
another, with the biggest outages we had seen. And usually that 
is not something to be positive about, but in fact Xcel came to 
the plate and brought people in from all over the country. And 
while some people were still out of service for a number of 
days, for some reason Minnesotans decided to be patient and we 
were able to get through it better than other areas have had, 
including the one we're in, when we have seen similar storms.
    So I want to thank you for that.
    Mr. Fowke. Thanks for that acknowledgement. I appreciate 
it.
    Vice Chair Klobuchar. All right. Thank you.
    Thank you, everyone. The record will remain open for two 
weeks, and the hearing is adjourned. Thank you.
    (Whereupon, at 11:06 a.m., Wednesday, July 10, 2013, the 
hearing was adjourned.)
                       SUBMISSIONS FOR THE RECORD

   Prepared Statement of Hon. Kevin Brady, Chairman, Joint Economic 
                               Committee
    I would like to thank Vice Chair Klobuchar for choosing the topic 
of today's hearing, ``Building Job Opportunities for Veterans.''
    Every Member of this Committee honors the men and women who have 
served in our nation's armed forces. Since the enactment of the 
Servicemen's Readjustment Act of 1944, popularly known as the ``G.I. 
Bill,'' Congress has pledged to help veterans pursue their ideal of the 
American dream. Congress remains committed to helping veterans make a 
successful transition to civilian life, caring for the wounded, and 
assisting the disabled and their families.
    Today's hearing focuses on a key portion of that commitment--
helping veterans find jobs. There are numerous federal and state 
programs designed to help veterans secure a college education and 
training; take advantage of what skills they learned in the armed 
forces and find gainful employment in the private sector.
    Broadly speaking, employment trends among recent veterans follow 
employment trends among the entire working-age population. Indeed, the 
twelve-month moving average unemployment rate for all veterans of 6.7 
percent is slightly lower than the overall unemployment rate of 7.6 
percent in June. Therefore, the general condition of our economy 
affects the level of employment among veterans as much if not more than 
specific programs designed to help veterans find jobs.
    The Growth Gap--which is the difference between economic 
performance in the current recovery and an average recovery since World 
War II--hurts the employment prospects of both veterans and non-
veterans. This recovery, which is four years old this month, is the 
weakest in seven decades. Consequently, the United States has $1.2 
trillion less in real GDP and 3.9 million fewer private sector jobs 
than the U.S. would have had in an average post-war recovery. In terms 
of real disposable income per capita, this anemic recovery has 
generated about $2,800 less in income after inflation and taxes for 
every American than an average post-1960 recovery would have generated.
    Why are we suffering from a Growth Gap? Business investment in new 
buildings, equipment, and software drives private sector job creation. 
Compared with previous recoveries, real business investment has been 
weak--after five and one-quarter years, it still remains 3.9 percent 
below its pre-recession peak.
    A lack of liquidity and high interest rates are not restraining 
business investment. Commercial banks have over $2 trillion in excess 
reserves sitting at the Fed that could be lent to America's 
entrepreneurs. America's non-financial corporations have another $1.5 
trillion in cash sitting on the sidelines. And interest rates remain at 
near historic lows. The Federal Reserve has done all that it can 
through monetary policy to help this recovery.
    Local businesses tell us--over and over again--that Washington's 
tax, regulation and deficit policies which President Obama continues to 
pursue are generating uncertainty that is deterring America's 
entrepreneurs from making the investments that would create millions of 
good jobs for veterans and non-veterans alike.
    Nobel laureate Albert Einstein defined insanity as ``doing the same 
thing over and over again and expecting different results.'' Four years 
after this feeble recovery began, it is clear that the current mix of 
economic policies is not working.
    What must be done to close the Growth Gap and ensure that the 21st 
century is another American Century? The bottom line is that we must 
get our act together in three major areas of economic policy:

    <bullet>  We must reduce federal spending and federal debt as a 
percent of GDP, and we must pursue pro-growth tax and fiscal policies 
that give businesses the incentive and confidence to invest in 
buildings, equipment and people.
    <bullet>  We must overhaul the federal regulatory process to ensure 
necessary regulations are balanced and cost-effective.
    <bullet>  We need to return to a predictable, rules-based monetary 
policy that maintains the purchasing power of the U.S. dollar over 
time.

    Those basic changes will spur the U.S. economy and help our 
veterans find gainful employment which, for all the sacrifice they've 
made for our country, they deserve. With that, I look forward to 
hearing the testimony of the witnesses.
                               __________
 Statement of Ryan M. Gallucci, Deputy Director, National Legislative 
         Service, Veterans of Foreign Wars of the United States
    Madame Vice Chair and Members of the Committee:
    On behalf of the men and women of the Veterans of Foreign Wars of 
the United States (VFW) and our Auxiliaries, I would like to thank you 
for the opportunity to offer the VFW's perspective on the current 
employment climate and potential solutions for today's veterans.
    As the current conflicts draw down and the military plans to shrink 
the active duty force, Department of Labor Veterans Employment and 
Training Service (VETS) anticipates that more than one million veterans 
will enter the workforce in the next few years. The VFW applauds the 
work of the 112th Congress in addressing persistent veterans' 
employment issue by implementing policies like the VOW to Hire Heroes 
Act. However, unemployment among young veterans remains unacceptably 
high. As the Joint Economic Committee deliberates on ways to improve 
the employment situation for America's veterans, the VFW looks forward 
to contributing to this important discussion.
    The most recent data from the U.S. Bureau of Labor Statistics 
indicates that veteran unemployment is trending downward, mirroring 
unemployment among civilians. Also, total veteran unemployment remains 
lower that the national average. Unfortunately, this glimpse into the 
employment situation of veterans only tells part of the story, since 
unemployment among young veterans still far outpaces unemployment among 
their civilian counterparts.
    The VFW believes this indicates a larger dilemma among the 
veterans' population. Over the last few years Congress, the Obama 
Administration and private industry leaders have spearheaded dozens of 
initiatives designed to help veterans find meaningful employment after 
military service. Many of these new initiatives appear to be yielding 
significant results for veterans with no further military obligations. 
Unfortunately, this means one group is left behind--Members of the 
Reserve Component with further service obligations to either the 
National Guard or Reserve.
    According to the veteran-hiring website VetJobs, unemployment among 
the National Guard, specifically, is around 25 percent. When VetJobs 
controls veteran unemployment statistics for those with further Guard 
and Reserve obligations, veteran unemployment is only at about 5 
percent--nearly two full percentage points lower than the civilian 
unemployment rate. To the VFW, this indicates persistent gaps for 
members of the Guard and Reserve in military skill transferability and 
civilian skill attainment.
    While the VOW to Hire Heroes Act significantly improved the 
economic landscape for veterans, certain programs remain 
underutilized--specifically the Veterans Retraining Assistance Program 
(VRAP) and the veteran hiring tax credits. The VFW believes that VRAP 
is a tremendous benefit that offers older veterans an opportunity to 
attain critical marketable skills when they are no longer eligible for 
other VA education benefit programs. VRAP offers 12 months of 
Montgomery GI Bill-style benefits to veterans ages 35-60 to attend 
education programs at two-year and technical institutions with a focus 
on high demand industries as outlined by VETS.
    The VOW to Hire Heroes Act offered 99,000 veterans the opportunity 
to take advantage of this program. While the VFW has heard from many 
veterans who have tapped into the program, we remain concerned about 
woefully low usage rates. As of Monday, June 3, 121,000 veterans have 
applied for the program and VA has approved the applications of more 
than 104,000 veterans, but only 50,000 veterans are enrolled in 
training. Benefits expire in March 2014, which means many veterans who 
are eligible for the program, but have yet to enroll, will not be able 
to use all of their entitlement.
    The VFW recently testified before the House Veterans' Affairs 
Committee about the issues facing VRAP, and called for a responsible 
extension of eligibility for those yet to enroll and for a report to 
Congress on usage, course completion and employment for VRAP 
participants. The VFW believes this is a solid program, but that 
several unforeseen bureaucratic problems have contributed to low 
enrollment. First, the restriction on two-year institutions means that 
veterans cannot enroll in certificate or Associate's Degree programs 
offered by four-year schools. For example, the Penn State Erie campus 
in Erie, Pa., serves as a de facto community college, offering two-year 
and certificate programs for the northwest region of Pennsylvania. An 
eligible veteran cannot find a community college nearby because they do 
not exist. This means VRAP-eligible veterans have very limited options 
for enrollment.
    Next, VRAP only pays students enrolled full time. This becomes a 
problem for veterans who require significant remediation to complete 
VRAP-eligible programs. At schools like the Community College of Rhode 
Island, remedial courses do not directly coincide with the academic 
calendar for other VRAP-eligible programs, meaning veterans cannot work 
them into their schedule without risking part-time enrollment, at which 
time VRAP benefits are suspended. The VFW believes that VA must make it 
easier for VRAP-eligible veterans to complete remediation by allowing 
for part-time enrollment in approved programs.
    The VFW also is concerned that the veteran-hiring tax credits are 
too difficult for businesses to use, which is why the program has also 
been underutilized. The VFW believes that Congress should streamline 
the paperwork required of a business to take advantage of the credit, 
allowing veterans to self-certify by providing certain paperwork. 
Businesses should also be able to apply the tax credit as a payroll tax 
credit, since some businesses who could use the benefit will not have 
the requisite taxable income to make the credit worthwhile.
    On a positive note, the VFW believes that private industry has 
taken significant steps in the last few years to recognize the value of 
employing veterans. Thanks to efforts from First Lady Michelle Obama's 
Joining Forces initiative and the U.S. Chamber of Commerce Hire Our 
Heroes initiative, businesses have actively come forward pledging to 
hire veterans into meaningful career paths. The VFW is particularly 
happy to see how the U.S. Chamber has leveraged resources from coast to 
coast, including American Legion and VFW posts, to host hiring fairs 
that result in jobs.
    Joining Forces has also contributed to this dialogue by fostering 
public-private partnerships, like the recently announced initiative to 
help 81,000 receive information technology professional certifications. 
In April, the VFW was honored to take part in the Joining Forces 
roundtables to address professional credentialing for veterans in 
transportation careers and the transferability of academic credit for 
military training and experience. Though gaps persist in both of these 
areas, the VFW has seen significant progress in the last few years 
thanks in large part to the Department of Defense pilot program on 
military credentialing for certain military occupational specialties.
    The VFW believes that when a service member leaves active duty, 
they should be able to continue in similar civilian careers. 
Unfortunately, this is not usually possible because military training 
does not directly align with either civilian professional licenses 
issued by states or civilian professional credentials designed by trade 
associations. The DoD pilot seeks to address both of these issues to 
ensure that service members can receive relevant credentials while on 
active duty, or at least easily sit for a professional license once 
they separate from the military. The VFW is proud to see the work that 
DoD has done on this pilot in concert with veterans' advocates from 
groups like our partners at the American Legion, ensuring certain 
professionals in careers related to transportation and health care can 
leave active duty with many civilian credentialing gaps filled in.
    Another critical component in preparing our veterans for civilian 
careers is the military's transition assistance program (TAP). For 
years the VFW called on the military to overhaul its out-of-date 
curriculum. Thanks to a recent Presidential Executive Order and the TAP 
mandate included in the VOW to Hire Heroes Act, the VFW is proud to 
report that the initial overhaul of TAP is nearly complete.
    While the VFW has acknowledged in testimony that redesigned TAP is 
far from perfect, we acknowledge that the latest iteration of TAP is a 
vast improvement that stands to offer veterans a quality baseline of 
information with which they can easily transition from military to 
civilian life. In particular, the VFW is happy to see TAP allow service 
members to select curricula relevant to their individual goals of 
higher education, small business ownership or vocational/technical 
careers. The VFW is in the process of evaluating each of these 
curriculum tracks, and we believe they will each offer veterans 
significantly improved resources to make sound transitional choices.
    We continue to work closely with each agency of jurisdiction for 
TAP, including VA, VETS, DoD, and the Small Business Administration 
(SBA) to ensure that curriculum for each track will be readily 
available to transitioning service members. We have concerns that the 
tracked curricula are not mandatory, but rather service members must 
satisfy career readiness standards on their own time. DoD officials 
have said that the TAP mandate included in the VOW to Hire Heroes Act 
only specified service-specific training, the VA benefits briefing and 
the VETS employment workshop. The VFW disagrees, since the TAP mandate 
covered ``assistance in identifying employment and training 
opportunities, help in obtaining such employment and training . . . '' 
in accordance with title 10, U.S.C., Sec.  1144 (a). To the VFW, this 
means higher education and any other training track that a veteran may 
choose.
    The VFW has also long said that transitioning service members have 
no way to reasonably anticipate all of the issues they will face after 
military service, which is why we will continue to push DoD to ensure 
that TAP resources are readily available to veterans after they leave 
the military. A critical component to the successful transition of a 
military professional into the civilian job market is information-
sharing among relevant federal, state and non-government organizations. 
Today, the chief complaint from VA, VETS, state departments of 
veterans' affairs and state workforce development agencies is the lack 
of information available from DoD when a service member leaves the 
military.
    The VFW believes that many quality programs are in place that could 
offer veterans remarkable employment resources, such as VETS' Disabled 
Veterans Outreach Program Specialists (DVOPS) and Local Veterans 
Employment Representatives (LVERs). Unfortunately, VETS has no way to 
reliably determine where veterans go once they leave the military or if 
they need help finding work. VETS is in the process of codifying an 
information-sharing agreement with DoD that will allow VETS access to 
contact information for transitioning service members. The VFW 
encourages DoD to finalize this agreement as soon as possible to ensure 
that VETS can reach out directly to recently separated veterans and 
offer any needed employment resources.
    Finally, the VFW has worked diligently over the last few years to 
ensure veterans have the tools necessary to choose a program of 
education that will help achieve their career goals. Two years ago, 
reports started to surface in Congress that some schools failed to 
deliver the kind of education they promised in an effort to collect 
lucrative GI Bill payments. The VFW decided that instead of seeking to 
gut and overhaul higher education, we would focus on creating informed 
consumers. Through our advocacy efforts, we secured a Presidential 
Executive Order and the Improving Transparency of Education 
Opportunities for Veterans Act, both of which seek to improve consumer 
resources for potential student-veterans and create methods through 
which veterans can take action against a school should they become 
victims of fraud, waste or abuse.
    The VFW believes that the Post-9/11 GI Bill will prove to be a 
transformative benefit, allowing our newest generation of veterans to 
acquire the skills necessary to compete in a 21st century workforce. 
However, the benefit is not perfect. Today veterans attending public 
schools are often precluded from attending as in-state students as a 
result of their military service. This forces veterans to drop out, 
find full time employment, or take on exorbitant student loan debt just 
to make it through college. To the VFW, extending in-state tuition to 
veterans is a simple extension of protections already afforded to 
active duty service members. Unfortunately, once the uniform comes off, 
the protection goes away and schools know it. According to Student 
Veterans of America, four out of every five student-veterans enrolled 
in a public school must attend as out-of-state students because of 
circumstances beyond their control. The VFW will continue to work 
diligently to change this flawed policy.
    Finally, despite these policy changes and improved consumer 
resources, some critics still point to flawed data as indicators that 
student-veterans are not succeeding in college. The VFW strongly 
refutes this allegation. Unfortunately, the truth remains that we do 
not know enough about our student-veterans. The VFW supports 
initiatives to better track student-veteran outcomes in higher 
education in order to demonstrate student-veteran success. VA and its 
partners with Student Veterans of America and the National Student 
Clearinghouse have already started work compiling this kind of valuable 
information, which the VFW is confident will show exactly how well 
prepared our newest veterans will be to lead our nation moving forward.
    The employment outlook for our nation's newest generation of heroes 
has drastically improved since the recession hit in 2008. However, as 
the VFW outlined in our testimony, we believe that we can certainly do 
more. Vice Chair Klobuchar and distinguished members of the committee, 
this concludes my statement and I am happy to answer any questions you 
may have.
                               __________
 Statement of Kyle Mitchell, Deputy Executive Director, Texas Veterans 
                               Commission
                                greeting
    Good Morning, Chair Brady, Vice Chair Klobuchar, and Members of the 
Committee. For the record, my name is Kyle Mitchell, Deputy Executive 
of the Texas Veterans Commission. On behalf of our Executive Director, 
Thomas Palladino, our Chairman, Eliseo ``Al'' Cantu, and the 
Commissioners of the Texas Veterans Commission, I would like to thank 
the Committee for this opportunity to testify before you today and for 
your interest in the efforts the state of Texas has undertaken in order 
to serve the 1.7 million Veterans in our state.
    I am accompanied today by Mr. Shawn Deabay, Director of the Texas 
Veterans Commission's Veterans Employment Services (VES) program. Mr. 
Deabay has worked in the VES program for nearly 13 years, working his 
way up from entry-level field staff as a Disabled Veterans Outreach 
Program (DVOP) Specialist and then as a Local Veterans Employment 
Representative (LVER). In 2007, he was named the Texas LVER of the year 
by the Texas Department of the American Legion and recognized as the 
National LVER of the Year by the Disabled American Veterans (DAV). 
After being promoted to Regional Manager for the East Texas Region, his 
region won the Veteran of Foreign Wars (VFW) Employment Distinguished 
Services Award. He went on to become the program's Operations Director, 
and in 2011, was named Program Director. As a result, he can speak to 
specifics of this program from a perspective few possess.
    My testimony will provide: (1) an overview of our agency programs, 
(2) background on the Veteran employment trends that make Veteran 
employment programs critical, (3) information on our Veteran Employment 
Services program with recommendations for improving the federal funding 
that supports that program, and (4) two successes of the Texas Model 
that impact Veterans employment: Veteran Entrepreneurship and Veteran 
Education.
    Mr. Deabay's testimony will provide you with recommendations for 
improving the federal investment in Veterans employment as well as the 
``secrets'' to Texas' successful implementation of its Veterans 
Employment Services program.
                       texas veterans commission
    The Texas Veterans Commission is the advocacy agency for Veterans 
in the State of Texas. Our mission is to advocate for and provide 
superior service to Veterans in the areas of claims assistance, 
employment services, education, and grant funding that will 
significantly improve the quality of life for all Texas Veterans, their 
families and survivors. The Texas Veterans Commission provides these 
services through four program areas: Claims Representation and 
Counseling, Veterans Employment Services, Veterans Education Program, 
and the Fund for Veterans' Assistance.
    No other state has centralized all of these program areas within 
their state's Veterans agency. This consolidation is a key to our 
success, allowing us to concentrate all of our efforts and resources on 
Veterans with a focus not possible when these programs exist as 
components of larger agencies.
    Texas is becoming recognized for aggressively leading on Veteran 
issues. National leaders have referred to the ``Texas-model'' when 
advocating for the integration of Veterans services.
                       veteran employment trends
    Veteran employment trends underscore the reason that Veteran 
employment programs are so important.
    In Texas, businesses understand that Veterans make great employees. 
The military has already made a significant investment in individual 
job training and Veterans have demonstrated the ability to learn new 
skills. Veterans have also demonstrated proficiency in these skills in 
stressful and rigorous conditions (i.e. combat, remote locations).
    Despite this reality, as you know, Veterans tend to face 
significant challenges to employment when transitioning from the 
military to the civilian workforce. The end of combat operations in 
Iraq, a decreased military presence in Afghanistan, and force shaping 
measures announced by the Department of Defense in January 2012 have 
swollen demand for Veteran employment services. We have seen this 
narrative played out on the ground in Texas. As recently as June 25th, 
the Department of the Army announced plans to reduce the number of 
active-component Brigade Combat Teams from 45 to 33 by 2017, a 
reduction of 80,000 soldiers. Approximately 17% of this total reduction 
impacts Texas directly, with reduction of a Brigade Combat Team each 
from Fort Hood in Killeen and Fort Bliss in El Paso.
    Gulf War II Era Veterans, especially, those recently separated 
veterans from the Iraq and Afghanistan conflicts, are facing challenges 
to employment at a greater rate than the general Veteran population. 
While at 7.2% for the month of June (2013), the national unemployment 
rate for Gulf War II Era Veterans has remained at or above 10% for 26 
of the past 36 months, peaking at 15.2% in January 2011.
    Female Veterans are another segment of the Veteran population that 
has experienced recent employment challenges. While we have seen some 
gains among male Gulf War-era II Veterans, their unemployment rate fell 
by 2.5 percentage points to 9.5 percent from 2011 to 2012, the rate for 
female veterans, at 12.5 percent in 2012, was little different from the 
prior year. Some contributing factors to this trend among female 
Veterans may include that employers have an outdated understanding of 
women's role in the military, women Veterans may not be aware of and 
obtaining the services and benefits that are available to them, and 
women Veteran's status as a care giver for children can conflict with 
employer needs.
                      veteran employment services
    These Veteran employment trends demonstrate the importance of the 
active and critical role that Congress has taken in providing 
employment resources for Veterans to the states through multiple 
workforce programs including the Jobs for Veterans State Grant (JVSG) 
through the Department of Labor, Veterans' Employment and Training 
Service (DOL-VETS). Through the JVSG, the federal government provides 
approximately $168 million to the states to support Veterans 
employment.
    The Texas Veterans Commission's Veterans Employment Services 
Program executes the JVSG, for the State of Texas. This program assists 
Veterans with obtaining long-term meaningful employment.
    Last year, the Texas Veterans Commission received $12.2 million 
from DOL-VETS through the JVSG which funded 170 Veteran Employment 
Representatives located in 92 workforce centers throughout Texas.
    In the most recent reporting period, the program assisted 69,080 
Veterans with 38,714 of those Veterans obtaining employment. As a 
result of these efforts, 221 Veterans obtained employment for every one 
Veteran Employment Representative. While Texas receives 7% of JVSG 
total funding nationwide, the state accounts for 18% of the nation's 
Veterans receiving services entering into employment.
    Based on our success with the JVSG, Mr. Deabay and I will be 
sharing four recommendations for improving the JVSG:
        1. Improve communications
        2. Seek input from successful states
        3. Reward performance through funding formula adjustments
        4. Promote innovative programs
    Let me focus on the issue of funding as there are two issues that 
would ensure that the $168 million investment that Congress makes in 
our Veterans is best utilized:
        1. Include Performance in the Funding Formula
    Currently, the funding formula utilized by DOL-VETS for the JVSG 
program allocates funding through a ratio, comparing the total number 
of Veterans residing in the state that are seeking employment to the 
total number of Veterans seeking employment in all states. A state's 
performance is not taken into account at any point in the funding 
formula. Thus, states are essentially penalized for high performance. 
When a state performs well by assisting a high number of Veterans 
locate and retain employment, the number of unemployed Veterans in that 
state falls, lowering the ratio by which that state is funded, equating 
to less funding. When a state performs poorly with fewer Veterans 
entering into employment, the number of unemployed Veterans rises or 
continues to be high, thus increasing the ratio and equating to 
additional funding. Performance should be taken into consideration when 
allocating funds to incentivize states to elevate their performance. 
Ignoring states' performance overlooks an opportunity for DOL-VETS to 
reward success and fuel innovation in states whose programs are 
producing effective employment outcomes for Veterans.
        2. Funding for Performance Should Reward Performance
    In addition, one percent of the current funding must be used for 
performance. Some states provide boards with the money received for 
performance while others provide that money to JVSG-funded staff or 
partners doing great things for Veterans employment. All states receive 
this one percent regardless of the state's performance. If a state is 
performing well below the national average or well below their 
negotiated goals, the state will continue to receive one percent as 
outlined by the attachment. States not performing at a high level 
should not receive performance funding. This money should be given to 
states performing well to encourage innovation and enhance their 
ability to provide long-term meaningful employment to Veterans.
    As Mr. Deabay will speak to the other issues to improve the JVSG, I 
would like to address two additional areas of the Texas Model that 
impact Veterans employment: Veteran Entrepreneurship and Veteran 
Education.
                    tvc veteran entrepreneur program
    There is another innovative component to meeting the Veteran 
employment need in Texas. In April 2012, the Texas Veterans Commission 
launched a pilot Veteran Entrepreneurship program which has hosted a 
series of seven seminars throughout the state and assisted over 1,000 
Veterans towards entrepreneurship.
    Based on the success of this pilot program, and because of the 
overwhelming interest from Veterans in starting and expanding their own 
businesses, the Texas Legislature recently passed legislation to 
permanently establish and fund the Veteran Entrepreneur Program at the 
Texas Veterans Commission to foster and promote Veteran 
entrepreneurship and business ownership.
    The U.S. Small Business Administration has been a valuable partner 
in this effort, but serves a population of over 23 million Veterans 
nationwide through a network of only fifteen (15) Veteran Business 
Outreach Centers. Again, when Veteran services are just components of 
larger efforts, those programs are normally not given the focus and 
priority needed to be as effective as possible. Considering the amount 
of effort required to identify, locate and communicate to Veterans, it 
is understandable that Veterans would fall through the federal 
``entrepreneurial cracks.''
    Leveraging the ``Texas Model,'' the Texas Veterans Commission's 
Veteran Entrepreneur Program is able to engage Veterans at the ``point 
of contact'' as Veterans use our employment and VA claims services. 
This approach has led to the significant, rapid success of our 
entrepreneur program and will serve to expand the number of Veteran-
Owned Businesses in the state.
                veterans education impact on employment
    Veterans education benefits directly impact the Veteran employment 
picture as well. Veterans separating from the military often choose to 
utilize educational benefits afforded them as the result of their 
service in order to acquire new skills or enhance and formalize skills 
they already possess, thus making them more competitive in the 
employment market.
    The Texas Veterans Commission is the State Approving Agency (SAA) 
for federal education benefits in Texas. Because of the historic state 
role in the education of its citizens, State Approving Agencies were 
the primary source for the U.S. Department of Veterans Affairs in 
assuring accountability for institutions of higher education while 
maintaining the state's authority to approve, disapprove, and monitor 
education and training programs for Veterans. Public Law 111-377, 
enacted in January 2011, shifted authority for approval of programs for 
which eligible Veterans and their families could use the GI Bill 
educational benefits from the states to the U.S. Department of Veterans 
Affairs. As a result, states are more limited in their ability to 
ensure the quality of these programs, which may ultimately impact the 
employability of the Veterans.
    Another valuable federal educational benefit is On-the-Job Training 
(OJT) Program, which is an alternative way for Veterans or eligible 
family members to use VA (GI Bill) education benefits. OJT is training 
which Veterans receive while actually performing a job and earning 
wages. If the program is approved by the Texas Veterans Commission, 
Veterans may utilize their GI Bill education benefits while in 
training. TVC currently has 276 employers with approved OJT programs 
including the Texas Department of Public Safety/Texas Highway Patrol, 
U.S. Customs & Border Patrol, Austin Police Department, Dallas Fire 
Rescue, Schlumberger Technology Corporation, and Southwest Airlines.
    In Texas, eligible Veterans and family members receive an exemption 
from the cost of tuition and fees for up to 150 credit hours at a state 
institution of higher education through the Hazlewood Exemption. 
Moreover, the Texas Legislature has allowed the unused portion of this 
benefit to be transferred to an eligible dependent and just designated 
funding in order to make this benefit to Texas Veterans and their 
families sustainable for years to come. Congress should consider 
similar changes to the transferability of Post 9/11 GI Bill benefits as 
a tool to assist in the employment of the family members of Veterans, 
which is intricately related to the issue we are discussing today.
                                closing
    The state of Texas is leading on Veteran issues. The Governor, 
Lieutenant Governor, and the Texas Legislature demonstrated their 
commitment to the Veterans of Texas this past legislative session by 
passing a number of key legislative initiatives for Veterans and by 
obligating significant funding for programs to assist Veterans in our 
state. State leaders deserve recognition for taking bold actions to 
serve the Veterans of our state.
    Veterans in Texas are also served by an active Congressional 
delegation that continually seeks to improve the services and benefits 
provided to them.
    Our goal at the Texas Veterans Commission is to assist as many 
Veterans as we can while continuing to provide high-quality services. 
There will be thousands of military service men and women coming home 
over the next few years, which will increase the need for our services. 
We owe it to our nation's heroes to assist them with their employment 
needs when they come home. Employment stabilizes Veterans and their 
family's lives allowing them to make the difficult transition from 
military to civilian life.
    Recently, some have voiced concerns regarding the effectiveness of 
the JVSG concept, leading some in the Veterans community to advocate 
for the consolidation of multiple workforce programs.
    The Texas Veterans Commission has demonstrated the capability to 
have a positive impact on Veterans employment issues. With the support 
of this Committee, we believe that the JVSG program and the VES program 
in Texas can continue to develop innovative and effective ways to 
improve the employment services provided to Veterans in our state.
    Again, I want to thank you for the opportunity to testify before 
you today. Thank you for the work you are doing, and will do, on behalf 
of Texas Veterans, and all Veterans, of this nation's Armed Forces.
                               __________
  Statement of Shawn Deabay, Director, Veterans Employment Services, 
                       Texas Veterans Commission
                              introduction
    Good Morning, Chair Brady, Vice Chair Klobuchar and Members of the 
Committee. My name is Shawn Deabay and I have the privilege of serving 
as the Director of Veterans Employment Services at the Texas Veterans 
Commission. As such, I am responsible for the management and execution 
of the Jobs for Veterans State Grant (JVSG) from the U.S. Department of 
Labor Veteran Employment and Training Services (DOL-VETS) for the state 
of Texas. This is an equivalent position to a Veterans State 
Coordinator in other states.
    Some have become disillusioned with the JVSG concept, contemplating 
a complete overhaul of the program or its consolidation with other 
employment initiatives. I voice caution with this view, primarily 
because, over my 13 years with the program, I have seen the program in 
Texas evolve from just another marginally performing state to, since 
2006, successfully implementing the JVSG programs with unparalleled 
performance outcomes. As the result of my experiences at every level 
within the organization, I believe the JVSG concept is sound, and, 
properly implemented, can yield highly successful results. However, 
there are things that both DOL-VETS and other states can do to 
drastically improve the JVSG program.
    My testimony provides some recommendations for improving JVSG, 
which include:
        1. Improve communications
        2. Seek input from successful states
        3. Reward performance through funding formula adjustments
        4. Promote innovative programs
    My testimony also provides some factors to Texas' successful 
implementation of the JVSG program, including:
        1. Supportive structure
        2. No competing priorities
        3. Veterans serving Veterans
        4. Focused outreach to employers
        5. Building strong partnerships
 recommendations for improving the jobs for veterans state grant (jvsg)
1. Improve Communications
    There needs to be healthier communication between the leadership at 
DOL-VETS and the appropriate state agency that administers JVSG for the 
state. Currently, the communication does not flow with either 
efficiency or consistency. The main way in which DOL-VETS communicates 
with states is through rules in the form of Veteran Policy Letters 
(VPLs) to the states. The focus of these policy letters have included 
roles and responsibilities of the Local Veteran Employment 
Representatives and the Disabled Veterans Outreach Program specialists, 
state plan modifications, negotiated performance goals, and others.
    There has not been a single Veteran Policy Letter distributed to 
states since June of 2012. July 1st was the start of the JVSG's second 
program year with no negotiated performance goals for any state. In 
August 2012, DOL-VETS announced an imminent Veteran Policy Letter 
completely overhauling the roles and responsibilities of the Local 
Veteran Employment Representatives and the Disabled Veterans Outreach 
Program specialists. Despite advising states to alter their state plans 
based on the contents, no further written guidance has been provided 
this year.
    An example of this communication: REALiflines was an initiative 
funded by DOL-VETS to assist severely injured soldiers. The Texas 
Veterans Commission had three staff dedicated to this cause. Our 
REALiflines coordinator for El Paso, Texas, was e-mailed directly by 
leadership within DOL-VETS at the beginning of December 2012 that the 
program would be discontinued. Two weeks passed before DOL-VETS 
officially notified the Texas Veterans Commission of their decision to 
end the program on December 31, 2012, leaving three Disabled Veteran 
Outreach Program specialists without employment following the Christmas 
holidays. Fortunately they were able to continue employment with the 
Texas Veterans Commission as the result of other vacancies. Otherwise, 
we would have had to let them go.
2. Seek Input From Successful States
    States consistently performing at a high level should be called 
upon to provide input to DOL-VETS. Best practices should be shared and 
discussions held to continue to explore innovative ways to improve 
employment services to veterans. There are states with incredible 
processes to ensure veterans have every resource available to locate 
and retain long-term employment.
    A formalized group of successful small, medium, and large states 
should gather to provide DOL-VETS with input about what is working 
well, what is not working well, and what the future of the program 
should look like. Gathering information from successful states, those 
actually implementing the programs, can only improve how veterans are 
being served across the nation.
3. Reward Performance Through Funding Formula Adjustments
    DOL-VETS provides funding to each state based on the number of 
unemployed veterans as compared to the number of unemployed veterans in 
other states. Attached you will find the latest funding estimates for 
fiscal year 2013. Essentially, one could argue that states are 
penalized for high performance. When a state performs well by assisting 
a high number of veterans to locate and retain employment, the number 
of unemployed veterans in that state falls, lowering the ratio by which 
that state is funded, equating to less funding. When a state performs 
poorly with fewer veterans entering into employment, the number of 
unemployed veterans rises or continues to be high, thus increasing the 
ratio and equating to additional funding. Performance should be taken 
into consideration when allocating funds to incentivize states to 
elevate their performance.
    Furthermore, one percent of the current funding must be used for 
performance. Some states provide boards with the money received for 
performance while others provide that money to JVSG-funded staff or 
partners doing great things for veterans employment. All states receive 
this one percent regardless of the state's performance. If a state is 
performing well below the national average or well below their 
negotiated goals, the state will continue to receive one percent as 
outlined by the attachment. States not performing at a high level 
should not receive performance funding. This money should be given to 
states performing well to encourage innovation and enhance their 
ability to provide long-term meaningful employment to veterans.
4. Promote Innovative Programs
    DOL-VETS seems to be on the verge of many new helpful initiatives 
for veterans. One example is recent efforts to help female veterans 
with their unique employment struggles. Labor Department officials have 
launched a new website devoted to issues and challenges affecting women 
veterans. Since announcing this as a priority a new website was 
launched that addresses potential barriers to employment that can 
prevent women veterans from reaching their full economic potential. The 
site also contains links with information on employment opportunities, 
education and health care options and data from the Bureau of Labor 
Statistics and other government agencies. Also, the Department of Labor 
announced a position created solely to focus on female Veteran 
employment issues. Since the Bureau of Labor Statistics 2012 Annual 
Report on the employment situation of veterans noted that women veteran 
unemployment rate continues to be higher than both their female non-
veteran counterparts and male veteran counterparts this increased focus 
by Department of Labor
          factors to texas' successful implementation of jvsg
1. Supportive Structure
    Within the Texas Veterans Commission, the Veterans Employment 
Services program has a clear and efficient organizational structure. 
There is a direct reporting structure that gives the Texas Veterans 
Commission the ability to be very responsive to either concerns or 
policy changes. Changes or implementation of policies and procedures 
are addressed in a timely and effective manner. There are not multiple 
levels of supervision hindering the decision making process. Within the 
program, the entire supervising structure is comprised of veterans, 
basically veterans supervising veterans, which has proven to be 
extremely effective. Many states have too many levels of supervision to 
be able to be proactive or respond in enough time to make a difference. 
Many other states also have non-veterans supervising veterans, which we 
believe to be not as effective.
    Such a supervising structure also allows for training to be 
implemented in a timely manner. Our training is organized state-wide 
ensuring identical training is provided to all Veterans Employment 
Representatives regardless of their location. Training is one of the 
most important aspects of performing at a high level. Consistent and 
unified training objectives are communicated with optimal results due 
to our supervising and reporting structure.
    Response time is also improved with a streamlined supervisory 
structure. When Veterans Employment Representatives have questions/
concerns or best practices, they can communicate to me as the Director 
of Veterans Employment Services within moments. Quickly responding to 
staff is extremely important and should not be understated. Staff wants 
to be heard and wants to make a difference in the lives of Veterans and 
their families.
    Another item which falls into our structure is the ability to 
assign challenging, but attainable performance standards to all 
Veterans Employment Representatives. The current Veterans Employment 
Staff performance standards were actually designed by a working group 
comprised of Veteran Employment Representatives working to translate 
DOL-VETS performance measures into individual standards. Employment 
staff input is a vital part of any decision making process. Veterans 
Employment Representatives have a clear understanding as to their role 
within the Texas Veterans Commission and America's Job Centers. This 
ensures that what is best for the veteran always stays at the forefront 
of any decision.
2. No Competing Priorities
    My singular purpose is ensuring veterans in Texas receive the 
employment services they have earned by defending our country. There is 
no more deserving of a group than veterans to receive our very best 
services. Many Veteran State Coordinators oversee multiple programs 
dividing the attention to Veterans Employment Services. Veteran 
employment should be the complete focus of the Veterans State 
Coordinator. Dividing focus with other programs is not providing 
veterans with the attention and commitment they have earned and 
deserve. The majority of the State Coordinators I have met and worked 
with are extremely passionate about veterans employment issues. 
However, many are not allowed to commit 100% of their time to this 
effort.
    The majority of the states have America's Job Center Managers in 
control over Veterans Employment Representatives staff. While some of 
these managers do a good job, many do not. This may not be the fault of 
the center manager, but due to competing priorities. Veterans are a 
small share of the population needing employment services. There are a 
number of programs within America's Job Center which require much 
attention. This takes away from 100% commitment and dedication to 
Veterans Employment Services. The structure and mission of the Texas 
Veterans Commission allows veterans needs to be the most important.
3. Veterans Serving Veterans
    Assessing veteran's needs is an important first step in a Veterans 
Employment Representative's job duties. This extremely important 
function includes a one-on-one, in-depth evaluation to identify 
significant barriers to employment. Veterans Employment Services staff 
is specifically trained to identify these barriers and a plan to 
address the needs. In Texas, all Veteran Employment Services staff 
members are veterans themselves and there is immense value in veterans 
being served and assisted by fellow Veterans. This makes every Veterans 
Employment Representative a walking success story!
    Veterans have proved by their very service their willingness to 
work hard. In an economy with stiff competition for every job opening, 
and reluctance on the part of many employers to even consider the 
unemployed, the challenge is getting informed guidance from an honest 
broker about how to get a foot in the door of an employer at a time 
when the rules of looking for a job have changed dramatically.
    Due to shrinking resources the trend in employment services is to 
discontinue one-on-one job coaching in favor of group workshops and 
internet tools. Sites like My Next Move (www.mynextmove.org) and the 
Veterans Job Bank (www.nrd.gov) encourage Veterans to research 
occupations, required skills, and open jobs using the Internet. 
However, many Veterans are at a disadvantage relying solely on these 
tools. Veterans find it difficult to have their valuable military 
experience recognized in the private sector. Also, frequent moves often 
leave Veterans without a network of professional contacts in the areas 
they locate to separating from the military. Simple guidance about how 
to get a foot in the door of an employer is usually what most veterans 
need to get employed. Veterans have earned the right for one-on-one job 
coaching and simply referring a veteran to internet sites is not 
enough.
4. Focused Outreach to Employers
    Not only is one-on-one service with veterans important, but one-on-
one service with employers can be just as important. Employer outreach 
is another vital part of the Texas employment equation. Employers want 
to know how to locate and find qualified veterans to fill job 
vacancies. Many employers do not know each state has a Veterans 
Employment Services program. More needs to be done to market our 
services to the public with an emphasis on employers. Each state 
receives funding from DOL-VETS to operate the JVSG program, but monies 
cannot be used for marketing purposes. This leaves states to create 
other methods of getting the word to veterans and business hiring 
managers. Bottom line is that more employers and veterans need to know 
who we are and what we do. According to a study performed by the 
Society for Human Resource Management, 68% of Human Resource 
Professionals polled were not at all familiar with Veterans Employment 
Services. Only 4% were very familiar and utilize Veterans Employment 
Services.
    The Texas Veterans Commission enhanced the role of four Veteran 
Employment Representatives designating them as Veterans Business 
Representatives. The Veterans Business Representatives are 
strategically located in Houston, Dallas/Fort Worth, San Antonio and 
Austin and are vested in building relationships with large companies 
and influential Texas employers in an effort to promote the hiring of 
highly qualified Veterans. This initiative's strategic approach has 
three phases. The first phase was to make initial contacts with Texas 
Workforce Commission business service units, and managers. Outreach to 
employers and employer organizations such as Society for Human Resource 
Management and local Chambers of Commerce was essential in marketing 
Texas Veterans Commission employment services. Through media coverage 
and active marketing, the Texas Veterans Commission has been inundated 
with employer phone calls and email correspondence from across Texas 
and the nation, eager to hire skilled Veterans.
    It is impossible to underestimate the value to a business of 
efficiently finding the right fit for job vacancies, therefore phase 
two includes increasing the hiring rate for Veteran job referrals. 
Helping employers fill job vacancies provides the greatest potential to 
positively affect employer relations and improve the well-being of all 
Veterans. In coordination with the Texas Workforce Commission, our 
staff will work to increase fill rates for Individualized Job 
Developments and WorkInTexas.com job postings. From start to placement, 
staff communicates that our goal is obtaining meaningful employment for 
our Veterans. The message to Veterans, qualified spouses, community and 
partners is ``we are here to help you find, get, and keep a job.'' Two 
tools used to meet this objective are improved applicant tracking and 
increased employer follow up.
    A critical component of the placement process is increasing rapport 
and confidence between the Veteran Employment Representative and the 
employer. In order to be successful, employers must understand that the 
Veteran Employment Representative is invested in successful 
placements--placements where both the employer and Veteran employee are 
satisfied. Providing quality hires is key to developing that confidence 
with employers or potential employers throughout the state.
5. Building Strong Partnerships
    The Texas Veterans Commission does not accomplish such high success 
alone. Working relationships with DOL-VETS and the Texas Workforce 
Commission are an essential part of Texas' achievements. Partnership 
and collaboration are two of the most valuable tools any employment 
service organization has. The non-Veteran Employment Services workforce 
staff of our partners at the Texas Workforce Commission faces budget 
challenges of their own. Each year funding is stagnant, while costs to 
deliver services continue to rise. Each year boards must reduce the 
number of staff to keep up with costs. Maintaining a positive working 
relationship with Local Workforce Boards and working as an integral 
partner in the Workforce Centers is crucial to overcoming this 
challenge.
    We also challenge our Veterans Employment Representatives to know 
all of the resources available for Veterans within their local 
community, including but not limited to the Veteran Service 
Organizations. Some cities have many services available for Veterans to 
help them overcome barriers to employment, while others do not. Our 
staff is responsible for not only knowing the resources available, but 
to have a point of contact. We do not simply refer a veteran to a 
partner. Instead, we may make that connection for the veteran to ensure 
they are taken care of properly.
                               challenges
    There has been national concern with federal employment programs, 
including the Veterans Employment Services program. These concerns have 
led some in the Veterans community to support legislation which would 
consolidate multiple job training programs into one, essentially 
deemphasizing the Veteran Employment program and not giving Veterans 
Employment the attention it deserves and needs to succeed. Veterans 
services will always fall behind in a priority list towards providing 
basic services to the general population. The successes the Texas 
Veterans Commission has achieved in veterans locating and retaining 
employment through our decision making process and guiding principles 
should be considered as changes to veterans employment programs and 
considered by other states Congress.
                                closing
    We have been tremendously successful placing well over 38,000 
Veterans into employment as reported by Department of Labor, Veterans 
Employment & Training. However, the real success is the impact the Jobs 
for Veterans State Grant has on Veterans and their families. I have a 
quick story I would like to share with you regarding a personal 
experience of mine when I was a Disabled Veterans Outreach Program 
Specialist in an America's Job Center.
    There was a homeless Veteran living in his car in the parking lot 
of the center I was working at. I learned of this gentleman when I got 
to work one day and he was looking for assistance. I learned of his 
barriers to employment, which included homelessness, lack of food, no 
place to clean-up, and a perceived lack of skills. We decided to work 
on an employment plan together with strategies to overcome these 
barriers. The key to this is that we worked on this plan together, a 
partnership between the two of us.

    <bullet>  We addressed housing by getting him a room at a faith-
based organization. This was a challenge as he didn't like some of the 
restrictions that were in place by that organization.
    <bullet>  We were able to get him some food.
    <bullet>  Then we started an analysis of his skills and interests. 
After much deliberation, truck driving came to the forefront.
    <bullet>  We worked through available truck driving schools and 
training facilities.
    <bullet>  He was not used to being on a plan or having set goals to 
achieve, but I believe made obtaining employment realistic.

    At the end of the process, this Veteran was employed at an over-
the-road truck driving company and was able to live in his truck, which 
seemed to be his biggest joy of the job. He would send me e-mails from 
his truck whenever he was passing through East Texas thanking me and 
how happy he was. This is what it's all about and makes me appreciate 
my job even more. One-on-one service to Veterans . . . they have earned 
this right!
                               __________
                    Prepared Statement of Ben Fowke
    Thank you, Vice Chair Klobuchar. It is a pleasure to be here this 
morning before this distinguished panel. I am especially delighted to 
be with you and Chairman Brady, given our operations in both Minnesota 
and Texas.
    My name is Ben Fowke, and I am chairman, president and chief 
executive officer of Xcel Energy, a public utility holding company 
headquartered in Minneapolis, Minnesota. We serve 3.4 million 
electricity customers and 1.9 million natural gas customers through in 
eight Western and Midwestern states.
    I appreciate this opportunity to talk about Xcel Energy's 
commitment to hiring our nation's veterans. This is an important and 
timely conversation for us to have, and I appreciate the Committee's 
focus on this issue.
    Roughly 12% of Xcel Energy's 11,000 employees are vets and veterans 
are even better represented on our management team. While we are proud 
of that performance, we want to do better. For example, we know that 
our veteran employees generally are not post-9/11 vets, so absent our 
intervention, we could lose ground. Our experience is similar to that 
noted in this Committee's report on ``Building Job Opportunities for 
Returning Veterans''--that is, the veterans we hire tend to be in the 
older, mid-career cohort, as opposed to the younger, fresh-out 
veterans. Yet over half of our hires each year are filled with people 
in the 25-35 age group, so there is great opportunity to change that 
result.
    I am committed to driving that change and will be working within 
our company, within our industry, and with policymakers like you so 
that we become a model of a veteran-friendly company.
    I will share with you my thoughts on those points, but let me start 
with why we set that goal for ourselves: Simply put, hiring vets makes 
good business sense.
    Veterans have skills and leadership qualities that help us succeed 
in our mission of delivering safe, reliable, and clean energy at an 
affordable price. Our industry faces significant need for new, 
qualified employees, as over half of our workforce is eligible to 
retire over the next 10 years. We offer challenging, rewarding jobs at 
competitive pay, and enhancing our ability to tap a pool of qualified, 
skilled candidates will better position us when filling those 
positions. It only makes sense that we find the best ways to identify, 
attract, hire, and retain the talent that vets offer.
    I will briefly highlight what we are doing both within our company 
and within our industry, and then offer suggestions for how we can 
improve veteran hiring practices.
    Internally, we have made veteran hiring a priority throughout the 
company and have worked to address various obstacles for doing so. One 
key gap has been the ability to translate military skills to job 
requirements, with the veteran unable to articulate his or her 
experience and skills that fit our positions and the hiring leader 
unable to recognize the military experience that is comparable to the 
work we do.
    To address this gap, we have developed a ``translator'' on our 
career website to help both applicants and our hiring leaders better 
understand the types of military experience and how they apply to our 
various job openings. We are focusing on linesmen, plant operation and 
maintenance workers, and engineers--all jobs where we expect to see 
significant turnover in the coming years. We believe we should be able 
to find good matches with the skills of returning veterans--but we need 
to be sure we build a better understanding of military skill sets to 
take full advantage.
    Next, we need to provide a supportive environment to retain that 
talent. Research shows that veterans stay in their first job after 
service for two years, but they stay at their next position for over 10 
years. That first shift from military to civilian life can be 
complicated, as expectations regarding civilian work can be somewhat 
unrealistic, as it is less focused on rank and title than the military. 
We want to provide an environment that lengthens these tenures, and we 
need all of our employees engaged in making that happen. To that end, 
we have developed a series of orientation, training, and leadership 
development programs to ease the transition.
    Within our industry, we have worked to greatly open channels to 
identify and recruit qualified veterans. We participate in partnerships 
such as Troops to Energy Jobs, a collaborative effort between the 
Edison Electric Institute and the Center for Energy Workforce 
Development, to help us link to available talent. We have also found 
that using our own veteran employees to recruit at career fairs has 
proven very helpful in attracting candidates. Other channels and 
partners, such as Military.com, Corporate Gray, and Hire Veteran, also 
help us reach potential candidates to fill our available positions.
    Finally, we are holding ourselves accountable by creating a 
dashboard to measure our progress. We know that we focus on what we 
measure, so we need to keep our eye on our ball and use our performance 
statistics to identify other actions we can take to further close the 
gap.
    I am very pleased to report that our efforts are paying off. We 
have been honored to receive awards for our veterans hiring practices, 
including the 2013 ``Most Valuable Employer for Military'' by 
CivilianJobs.com. G.I. Jobs listed Xcel Energy as a ``Top Military 
Friendly Employer'' in 2012 and 2013. It is always nice to be 
recognized, but we also know that there is much more that we can and 
must do.
    To that end, let me offer two suggestions for how we can better 
work with you--the policymakers--to further strengthen the partnerships 
to be even more successful.
    First, anything that can be done to better identify the linkage 
between a veteran's military experience and civilian jobs would be 
helpful. Partnerships between civilian companies and veteran agencies 
such as the Military Transition Assistance Program can improve the 
vet's ability to communicate with companies more effectively, and 
further support of those efforts would be welcome. Such efforts are 
similar to those we have undertaken for college students in 
collaboration with St. Cloud State University in Minnesota, helping the 
students relate their experience to our job openings. I believe there 
are models available for helping bridge the communication gap, and we 
should work to put them in place.
    Second, it would be helpful if military training could lead 
directly to civilian certifications. In our industry, valuable 
certifications include Certified Security Professionals, Plant Operator 
Licensing, Professional Engineers, Certified Information Systems 
Security Professional, CPAs or Certified Internal Auditors. In many 
ways, such military and civilian jobs have similarities, and providing 
avenues for veterans to achieve these kinds of certifications would 
greatly help the transition. Our industry employs a number of highly 
technical, skilled positions that are extremely competitive right now. 
Having a larger pool of qualified applicants would be very helpful, 
particularly as we address the retirement bubble we face.
    Let me conclude by making clear that we are committed to this issue 
at all levels of the business. I believe we have a tremendous 
opportunity to have veterans continue their honorable service by 
helping us keep the lights on every day, bringing their leadership and 
technical skills to add value for our customers and shareholders. We 
want to work with you and others to make this happen.
    Thank you, and I'd be happy to take your questions.
                               __________
  Question for the Record from Senator Pat Toomey to Mr. Deabay, Mr. 
                       Mitchell, and Mr. Gallucci

    <bullet>  I offered a bill in the last Congress that would require 
the Department of Labor (DOL) to provide enhanced online resources to 
veterans searching for jobs. In your opinion, what enhancements, if 
any, could we make to websites available to veterans at DOL's One-Stop 
Career Centers to aid their job searches?
                               __________
   Response to Senator Pat Toomey's Question from Mr. Ryan Gallucci, 
                        Veterans of Foreign Wars

    <bullet>  I offered a bill in the last Congress that would require 
the Department of Labor (DOL) to provide enhanced online resources to 
veterans searching for jobs. In your opinion, what enhancements, if 
any, could we make to websites available to veterans at DOL's One-Stop 
Career Centers to aid their job searches?

    Over the last two years, the VFW believes that the online resources 
DOL Veterans Employment and Training Service (VETS) makes available to 
veterans have significantly improved. DOL recently revamped its 
American Jobs Centers websites, making them more easily navigable for 
both potential employees and employers. Plus, veteran-specific 
resources like the Veterans Jobs Bank through the National Resource 
Directory (www.nrd.gov) and My Next Move for Veterans 
(www.mynextmove.org/vets) have improved significantly, allowing a 
veteran to find career opportunities, but also explore the job climate, 
potential salaries and career outlooks.
    However, the VFW agrees that VETS' online resources still have room 
for improvement. One critical gap is the availability of military 
Transition Assistance Program (TAP) resources for separated service 
members. As we outlined in our prepared remarks, service members who 
are still on active duty cannot reasonably anticipate all of the 
challenges they may face once the uniform comes off. This means that 
even if TAP offers all of the information a service member may need to 
succeed after service, some of it will be ignored until a veteran 
encounters a specific challenge after service.
    The Department of Defense (DoD) has acknowledged this shortcoming 
and is looking to make TAP resources available via its Joint Knowledge 
Online (JKO) portal, allowing service members to access them on their 
own time, should further questions arise. Unfortunately, JKO is not 
available to veterans since JKO accounts are shut down at the end of 
time in service. The VFW recommends housing TAP curriculum modules 
either on the publicly facing VETS and VA websites, where anyone could 
access them, or on VA's password-protected eBenefits portal, where only 
enrolled veterans could access them.
    The VFW has monitored the DoD/VA/VETS overhaul of TAP and we are 
generally satisfied with curriculum improvements and plans to 
periodically update it. However, the VFW also believes that veterans 
who struggle to find career opportunities must have access to these 
resources through either VA or VETS channels after service.
[GRAPHIC] [TIFF OMITTED] T2370.001

[GRAPHIC] [TIFF OMITTED] T2370.002

[GRAPHIC] [TIFF OMITTED] T2370.003

[GRAPHIC] [TIFF OMITTED] T2370.004

[GRAPHIC] [TIFF OMITTED] T2370.005

[GRAPHIC] [TIFF OMITTED] T2370.006

[GRAPHIC] [TIFF OMITTED] T2370.007

[GRAPHIC] [TIFF OMITTED] T2370.008

[GRAPHIC] [TIFF OMITTED] T2370.009

[GRAPHIC] [TIFF OMITTED] T2370.010

[GRAPHIC] [TIFF OMITTED] T2370.011

[GRAPHIC] [TIFF OMITTED] T2370.012

[GRAPHIC] [TIFF OMITTED] T2370.013

[GRAPHIC] [TIFF OMITTED] T2370.014

[GRAPHIC] [TIFF OMITTED] T2370.015

  

                                  <all>

</pre></body></html>
